<html>
<title> - NATIONAL ARCHIVES OVERSIGHT: PROTECTING OUR NATION'S HISTORY FOR FUTURE GENERATIONS</title>
<body><pre>[Senate Hearing 110-542]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-542
 
                      NATIONAL ARCHIVES OVERSIGHT:
                    PROTECTING OUR NATION'S HISTORY
                         FOR FUTURE GENERATIONS

=======================================================================

                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                   INFORMATION, FEDERAL SERVICES, AND
                  INTERNATIONAL SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
43-913 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, FEDERAL SERVICES, 
                AND INTERNATIONAL SECURITY SUBCOMMITTEE

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           PETE V. DOMENICI, New Mexico
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                    John Kilvington, Staff Director
                  Katy French, Minority Staff Director
                       Monisha Smith, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1

                               WITNESSES
                         Wednesday May 14, 2008

Hon. Benjamin L. Cardin, a U.S. Senator from the State of 
  Maryland.......................................................     3
Hon. Allen Weinstein, Ninth Archivist of the United States, 
  National Archives and Records Administration, accompanied by 
  Adrienne Thomas, Deputy Archivist of the United States, 
  National Archives and Records Administration...................     5
Linda Koontz, Director, Information Management Issues, U.S. 
  Government Accountability Office...............................     8
Paul Brachfeld, Inspector General, National Archives and Records 
  Administration.................................................     9
Patrice McDermott, Director, OpenTheGovernment.org...............    25
Thomas Blanton, Director, National Security Archive, George 
  Washington University..........................................    28
James S. Henderson, Former State Archivist, State of Maine, 
  representing the Society of American Archivists................    30
Martin J. Sherwin, University Professor of History, George Mason 
  University, representing the National Coalition for History 
  (NCH)..........................................................    32

                     Alphabetical List of Witnesses

Blanton, Thomas:
    Testimony....................................................    28
    Prepared statement...........................................    90
Brachfeld, Paul:
    Testimony....................................................     9
    Prepared statement...........................................    76
Cardin, Hon. Benjamin L.:
    Testimony....................................................     3
Henderson, James S.:
    Testimony....................................................    30
    Prepared statement...........................................   100
Koontz, Linda:
    Testimony....................................................     8
    Prepared statement...........................................    55
McDermott, Patrice:
    Testimony....................................................    25
    Prepared statement...........................................    83
Sherwin, Martin J.:
    Testimony....................................................    32
    Prepared statement...........................................   104
Weinstein, Hon. Allen:
    Testimony....................................................     5
    Prepared statement...........................................    39

                                APPENDIX

Questions and Responses for the Record from:
    Mr. Brachfeld................................................   112
    Ms. McDermott................................................   121
    Mr. Blanton..................................................   124
    Mr. Sherwin..................................................   128
    Mr. Weinstein................................................   131


                      NATIONAL ARCHIVES OVERSIGHT:
                    PROTECTING OUR NATION'S HISTORY
                         FOR FUTURE GENERATIONS

                              ----------                              


                        WEDNESDAY, MAY 14, 2008

                                 U.S. Senate,      
        Subcommittee on Federal Financial Management,      
               Government Information, Federal Service,    
                              and International Security,  
                          of the Committee on Homeland Security    
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:23 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Subcommittee, presiding.
    Present: Senators Carper and Cardin.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. The Subcommittee will come to order. Thanks 
to our guests for their patience, for being here today. This 
hearing marks what I hope to be the beginning of this 
Subcommittee's oversight of the National Archives and Records 
Administration.
    The revolutionary ideas embodied in documents such as the 
Declaration of Independence and the Constitution of our country 
are entrusted to one organization, the National Archives. 
Established by Congress to be the Nation's record keeper, the 
Archives has the critical mission of storing and protecting our 
Nation's most valuable and most important documents.
    I am told that Thomas Jefferson once said that an educated 
citizenry will ensure a free society. In fact, if I can 
paraphrase Jefferson, I think what he said is if the American 
people know the truth, they will not make a mistake, and it was 
true then and I think that is true today. I think we can all 
agree that unhindered access to information about our 
government and the ideas of the men and women like Jefferson 
who have made decisions on our behalf is critical to the 
continued health and vibrancy of our democracy.
    The National Archives was established to safeguard and 
preserve the records of our government, ensuring that the 
people can discover, use, and learn from this documentary 
heritage. As I prepared for this hearing, I have to say that 
some questions were raised in my own mind about whether the 
Archives is fulfilling this essential mission, at least in some 
areas. Additionally, I question whether Congress and the 
President are giving the Archives the resources and the tools 
that are necessary to do the job that we have tasked them with.
    A lot has changed in our country, as we know, due to the 
evolution of information technology. The ability to create, to 
search, and to access information from any location in the 
world has greatly affected the way humans communicate and 
learn. Every year, billions of documents that shape the 
decisions that our government makes and the course of human 
events are never written down with pen and paper. Instead, 
these records are born digital. They are created electronically 
and live not in a filing cabinet somewhere, but on computers 
and on the Internet. The current controversy surrounding the 
missing White House e-mails highlights the importance of 
electronic records management.
    Due to a lack of Congressional guidance, poor 
decisionmaking, or just sheer mismanagement, policy discussions 
involving any number of key issues, including the war in Iraq, 
may never be seen by historians, by authors, and by the public 
at large. How can democracy thrive, then, if people cannot hold 
their government--our government--accountable?
    Further, I am troubled by the recent cost overruns on the 
Electronic Records Archives Project. The system is intended to 
be the Archives' answer for transferring, preserving and making 
accessible all Federal and Presidential records. However, we 
cannot definitively say whether this project will be delivered 
on time and on budget in preparation for the upcoming 
Presidential transition.
    This reminds me a little of the situation that our country 
is facing in the Census Bureau with the handheld computer 
project that had to be canceled because it will not be ready 
for Census takers to use by the year 2010. So we end up once 
again largely doing our Nation's 10-year Census using pencil 
and paper.
    Instead of dealing with the problems before they escalated, 
it seems like agency officials and contractors, just as they 
did at the Census Bureau, decided to march ahead, assuming that 
Congress would foot the bill. It is imperative that we make 
this system work as planned, and it is equally important that 
we get it done as quickly and as cheaply as we can reasonably 
hope at this point.
    With that said, I have convened this hearing today not to 
point fingers or to encourage controversy, but to learn how we 
can help the Archives achieve its core mission of safeguarding 
and preserving the records of our government. Further, we hope 
to learn more about how the Archives is changing its business 
model to bring in the technology necessary to ensure that 
records born digital are preserved and easily accessible. 
Finally, I want to determine whether the Archives can improve 
its services online so that the public can access key 
historical documents.
    We thank the witnesses for appearing before us today and 
certainly look forward to your testimony. We apologize for 
starting a bit late. We ended up with a vote just on the eve of 
starting this hearing, so I apologize we are starting a little 
bit late.
    I am delighted that Senator Cardin--I almost said 
Congressman Ben Cardin, since he and I both served as 
Congressmen together--but I am delighted that he was able to 
join us today. He heard that we are having this hearing and I 
encouraged him to come by and spend as much time as he would 
like. You are recognized for any statements or comments you 
would like to make. We are delighted that you have come.

 OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR 
                   FROM THE STATE OF MARYLAND

    Senator Cardin. Senator Carper, thank you very much. As you 
pointed out, I don't serve on this Subcommittee, but I do 
represent the U.S. Senate on the National Historical 
Publications and Records Commission and attended my first 
meeting yesterday and I am very impressed by the work that is 
done by that Commission.
    I have always been impressed by Dr. Weinstein and his 
commitment to our National Archives and the work that he does. 
Just to tell you a very short story, on the day before I took 
the oath of office as a U.S. Senator, I took my family to the 
National Archives because I thought it was an appropriate place 
to start my career in the U.S. Senate. I must tell you that 
just about every member of my family that visited the National 
Archives has been back because there is just so much they can 
learn from the records and the manner in which those records 
are kept.
    I think, though, you are asking the right question, Mr. 
Chairman, and it is how should the National Archives serve our 
modern needs, particularly with new technologies. That is why 
when I talked to Dr. Weinstein, he was excited about this 
hearing because he thinks it is important for Congress and the 
National Archives to work together in partnership to meet these 
challenges, and I know that is the purpose of this hearing, to 
see how we can make sure that the important work that needs to 
be done is supported here in Congress and that we develop a 
strategy that will provide the best possible access to the 
records of our country for all users, whether it be a high 
school student or whether it be a person in academia who is 
doing important research work.
    That is our goal and I think this hearing will help us in 
meeting those goals, and I thank you for allowing me to stop 
by. I apologize that I will not be able to stay for the 
hearing, but I wanted the Subcommittee to know of my interest 
and I am willing to work with the Subcommittee on this matter.
    Senator Carper. Senator Cardin, thank you so much for 
coming. We are grateful that you are here and for your interest 
and we look forward to working with you.
    Our first witness today will be the Ninth Archivist of the 
United States. I have called you ``Wine-steen,'' I have called 
you ``Wine-stine.'' Others have probably called you worse names 
than that. How do you pronounce your name?
    Mr. Weinstein. Well, Mr. Chairman, first of all, thank you 
for holding this hearing. Thank you, Senator Cardin, for being 
here. It depended on which side of the Grand Concourse you were 
raised on. [Laughter.]
    I am a Bronx kid, and that was the issue, but that is at 
least within the realm, you call it this or you call it that. A 
few weeks into being Archivist, I stood up for a speech and the 
person introducing me turned to me and said, ``Now I would like 
to present to you the Alchemist of the United States, Allen 
Weinstein.'' [Laughter.]
    Try to get back into a serious mood after that one.
    Senator Carper. Well, I am not going to recognize you yet 
to testify. I am just trying to get you to correctly pronounce 
your name for us. Is it ``Wine-stine''?
    Mr. Weinstein. It was ``Wine-stine'' on the side of the 
Grand Concourse----
    Senator Carper. That you grew up in?
    Mr. Weinstein. That we could afford. [Laughter.]
    Senator Carper. Just a quick introduction for each of our 
guests and then I will recognize you for your testimony.
    Dr. Weinstein was confirmed by the U.S. Senate about 3 
years ago and he has been on the job now for several years. 
Previously, Dr. Weinstein served as the President for the 
Center for Democracy, a nonprofit foundation that he created in 
1985 to promote and strengthen the democratic process. He has 
won many international awards, including the United Nations 
Peace Medal in 1986, the Council of Europe's Silver Medal 
twice, both in 1990 and 1996, and several fellowships, 
including two senior Fulbright lectureships. In addition, Dr. 
Weinstein was a university professor and professor of history 
at Boston University, a university professor at Georgetown 
University, and author of a number of books, articles, and 
essays.
    Accompanying Dr. Weinstein today but not giving an opening 
statement, I am told, is Adrienne Thomas, is that correct?
    Ms. Thomas. That is correct.
    Senator Carper [continuing]. The Deputy Alcherist of the--
--
    Ms. Thomas. Yes, or Anarchist.
    Senator Carper [continuing]. Anarchist of the United 
States. We are glad that you both are here.
    Our next witness is Linda Koontz, no stranger in these 
places. Ms. Koontz is Director for Information Management 
Issues at the U.S. Government Accountability Office. It is nice 
to see you today. Ms. Koontz is responsible for issues 
concerning the collection, the use, and dissemination of 
government information, and recently Ms. Koontz has directed 
studies concerning records management, privacy, data mining, 
information access and dissemination, and E-Government. Ms. 
Koontz is a Spartan, a graduate with a B.A. from Michigan State 
University? I am an old Buckeye, Ohio State, up here. But 
better to be a Spartan than one of those Wolverines. 
[Laughter.]
    A certified Government Financial Manager and a certified 
information privacy professional.
    And our final witness today, at least on this panel, is 
Paul Brachfeld. Did I pronounce it right?
    Mr. Brachfeld. You did very well.
    Senator Carper. All right. Good. He is Inspector General of 
the National Archives and Records Administration. Mr. Brachfeld 
oversees the conduct and execution of all audits, 
investigations, and inspections for the agency. Are you 
appointed by the National Archives Director?
    Mr. Brachfeld. I am appointed by the Archivist of the 
United States.
    Senator Carper. OK.
    Mr. Brachfeld. Actually, the former Archivist, John Carlin, 
selected me. Appointed is not the word.
    Senator Carper. Selected, OK. All right. Fair enough. Thank 
you. Wasn't he a governor?
    Mr. Brachfeld. Former Governor of Kansas.
    Senator Carper. A former governor. There you go. Mr. 
Brachfeld's investigative activities include the recovery of 
hundreds of stolen Archival holdings and related successful 
prosecutions of identified subjects. Mr. Brachfeld has a B.S. 
in accounting from the University of Maryland, which makes him 
a Terrapin.
    We thank you for joining us. We thank all of you for 
joining us, and we will start with opening statements from Dr. 
Weinstein. Welcome.

 TESTIMONY OF HON. ALLEN WEINSTEIN,\1\ NINTH ARCHIVIST OF THE 
 UNITED STATES, NATIONAL ARCHIVES AND RECORDS ADMINISTRATION, 
ACCOMPANIED BY ADRIENNE THOMAS, DEPUTY ARCHIVIST OF THE UNITED 
      STATES, NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

    Mr. Weinstein. Thank you, Chairman. Once again, I thank you 
for holding this hearing today. I am pleased to report on 
progress at the National Archives and Records Administration 
(NARA) during my 3-year tenure. There is much to report. I can 
only touch on the highlights here. However, I will be happy to 
answer for the record any questions or to provide any 
supplemental material that you would like.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Weinstein appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    The stories of this Nation and its people are told in the 
records and artifacts cared for in the National Archives--we 
call it NARA's facilities around the country. We want all 
Americans to be inspired to explore the records of this 
country, their country. We want every American to have access 
to the essential documentation of their rights and of the 
actions of their government. We promote civic education and 
facilitate historical understanding of our national experience. 
When we revised our 10-year strategic plan, we made it explicit 
that promoting civic literacy is essential to our work.
    During fiscal year 2007, the National Archives responded to 
1.2 million written requests for information, served over 
135,000 researchers in Washington and in our almost four dozen 
facilities across the country, hosted nearly 220,000 people at 
public programs, and welcomed 2.9 million visitors to exhibits 
in Washington and in the 12 Presidential libraries, and 
received 35 million visits to our website.
    However, simply allowing access to our holdings is not 
enough. We are committed to providing opportunities for the 
public to see, use, and learn from the records of our 
government. This will develop a greater understanding of the 
history, cultural values, and ideas that have shaped our 
Nation. It is vital, Mr. Chairman, that the raw documents and 
facts we possess, preserve, and store--ten billion pieces of 
paper and in the future many terabytes of electronic records--
that these have meaning for the American people to which they 
belong.
    In Washington, DC, our learning center, the Boeing Learning 
Center, is now fully open, focusing on NARA's efforts to help 
teachers make the study of history, civics, and social studies 
more engaging and important for students through the use of 
primary documents. The Presidential libraries and regional 
records centers conduct similar programs for students and 
teachers. And for nearly 30 years, NARA has conducted summer 
institutes to instruct teachers in the use of historical 
documents in the classroom.
    The National Archives is a multifaceted organization. The 
3,000 employees who work in 20 States, over 40 facilities 
throughout the country, are dedicated to our mission to 
preserve democracy by safeguarding and preserving the records 
of the Federal Government. We house the records, Mr. Chairman, 
of all three branches of government and respond to literally 
millions of requests each year from the Executive Branch, the 
Congress, the courts, and from the citizens who own these 
records.
    Our Center for Legislative Archives holds the records of 
Congress--at least the institutional ones--and is preparing 
many of these legislative treasures for display in the Capitol 
Visitors Center. The Center for Legislative Archives delivers 
over a million pages of records annually to support the conduct 
of current Congressional business. It also preserves and makes 
available to researchers the historical records of the U.S. 
House of Representatives and the U.S. Senate. The Center uses 
these historical records to promote a better understanding of 
Congress and the history of American representative government.
    The National Archives manages 12, soon to be 13, 
Presidential libraries documenting the Administrations from 
Herbert Hoover to Bill Clinton. President George Bush recently 
announced that his library will be built on the campus of 
Southern Methodist University in Dallas. We are actively 
engaged with the White House in organizing the transfer of the 
Administration's paper and electronic records from the White 
House to NARA oversight in Texas and Washington, DC.
    One of the greatest challenges to the National Archives is 
the rapidly growing number of electronic records being created 
by the Federal Government. These records include text 
documents, e-mails, web pages, digital images, videotapes, 
maps, spreadsheets, presentations, databases, satellite images, 
geographic information systems, and more types of records to be 
created in the future. Unlike parchment or paper, Mr. Chairman, 
electronic records can become inaccessible quite easily as time 
passes and technology advances. The hardware and software used 
to create these records can become obsolete very quickly, 
within months or years. This leaves countless important records 
at risk of being lost forever. But the good news is that the 
technology for preserving electronic records is finally 
catching up with the technology for creating them.
    The mission of the Electronic Records Archives, ERA as we 
call it, is clear and simple.
    Senator Carper. Dr. Weinstein, this would just be a request 
I would make of you and each of the panelists on this panel and 
subsequent panels. Sometimes folks feel like they have to use 
acronyms when they testify before us. To the extent you can 
stay away from them, I would be grateful. Thank you.
    Mr. Weinstein. OK.
    Senator Carper. ERA, I don't know if we are talking 
baseball or Equal Rights Amendment for the Constitution. So the 
extent that you can actually use the----
    Mr. Weinstein. You don't want to talk baseball to me. I am 
a Yankees fan.
    Senator Carper. You are probably right. [Laughter.]
    Mr. Weinstein. The mission of the Electronic Records 
Archives is clear and simple. It will authenticate, preserve, 
and make accessible far into the future important electronic 
records of the Federal Government regardless of the type of 
hardware or software used to create them or the kind available 
in the future.
    The first phase of our Electronic Records Archives will 
become operational in June of this year, next month. An early 
challenge faced by the Electronic Records Archives will occur 
on January 20, 2009, when the National Archives takes custody 
of the remaining records of the Bush Administration. Millions 
of electronic text documents, digital photographs, and e-mails 
will be among those records. If the past is prologue, the first 
request for access to those electronic records will also come 
on January 20, 2009. Electronic Records Archives will ensure 
that we are prepared to meet those requests.
    In 2009, Mr. Chairman, concluding, we will celebrate the 75 
anniversary year of the establishment of the National Archives. 
During the past 75 years, the staff of the National Archives 
has found itself on the leading edge of change. Almost 30 years 
before the creation of the Freedom of Information Act, 
archivists were making available the records of the U.S. 
Government to the public in National Archives reading rooms. 
Beginning with President Roosevelt's gift to the Nation and 
with Congress's help, we shepherded the growth and development 
of the modern day Presidential library system.
    In the 1970s, Mr. Chairman, we heralded the era of 
archiving electronic records by taking in the most permanent 
computerized records from government databases. Today, we are 
taking the lead in archiving digital information with the 
development of the Electronic Records Archives. We have always 
embraced these types of challenges as part of our unique and 
important mission as guardians of the records of government. 
With your support, the support of Congress, the National 
Archives will continue to meet the challenges of the present 
and the future.
    Thank you, Mr. Chairman. This concludes my formal remarks 
and I welcome any questions you and other Members of the 
Subcommittee might have.
    Senator Carper. Dr. Weinstein, thank you very much.
    For this panel of witnesses and for our second panel of 
witnesses, your entire statement will be made part of the 
record and if you wish to summarize, please feel free to do so. 
Normally we ask people to stick within 5 minutes in giving your 
testimony. If you run a bit longer than that, we are not going 
to bang the gavel. We will let you go a little while longer.
    Ms. Koontz, thank you for joining us and we are happy to 
see you. You are recognized.

TESTIMONY OF LINDA KOONTZ,\1\ DIRECTOR, INFORMATION MANAGEMENT 
         ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Koontz. Thank you, Mr. Chairman. I appreciate the 
opportunity to participate in today's hearing on challenges and 
progress in overseeing the preservation of our Nation's 
historical documents.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Koontz appears in the Appendix on 
page 55.
---------------------------------------------------------------------------
    As you know, since 2001, the National Archives has been 
working to develop a modern Electronic Records Archives system. 
This major information system is intended to preserve and 
provide access to massive volumes of electronic records of all 
types and formats. The system is also to automate the Archives' 
processes for records management in archiving.
    However, in 2007, the Archives' contractor acknowledged 
that it would not be able to meet the planned date for the 
initial operational capability of the first increment of the 
system. In response to this delay, the Archives changed its 
approach to developing the Electronic Records Archives, but 
uncertainties remain. The program is currently pursuing a two-
pronged development strategy.
    First, NARA has developed plans to achieve an initial 
operational capability that will have capabilities that are 
somewhat reduced from those that had been planned. NARA refers 
to this initial system as the base system. Initial operational 
capability for the base system had been planned for September 
2007, but is now scheduled for June 2008.
    Although recent delivery deadlines have all been met and 
testing has begun on schedule, NARA has extended some test 
periods beyond what was originally planned, leaving less time 
for final security reviews. Although officials remain confident 
that these schedule changes will not affect the date for the 
initial operational capability, problems uncovered through 
testing could lead to delay. According to the officials, they 
are mitigating the risk of delays by paying close and 
continuing attention to the testing process through such 
actions as weekly meetings of the test team.
    The second part of the Archives' strategy responds to their 
need to receive the Presidential records of the Bush 
Administration in January 2009. These electronic records are 
estimated to total 100 terabytes of data, which is 50 times 
more than that of the previous administration. NARA had planned 
to use the ERA system for this purpose, but the developmental 
delays in 2007 put this plan at risk.
    To address this risk, the Archives and its contractor are 
pursuing a parallel development of a separate part of the 
system that is to be dedicated initially to these records. This 
part of the Electronic Records Archives is referred to as the 
Executive Office of the President System. This system is being 
built on a commercial product that provides some of the basic 
requirements for processing Presidential electronic records, 
such as rapid ingest of records and ability to search content. 
This separate development decouples the EOP system from 
dependence on the development of the base system. However, it 
is uncertain whether the system will be developed to the point 
that it can receive the Bush Administration records in January 
2009, primarily because the Archives and its contractor are 
still negotiating the precise scope of work and system 
requirements.
    Finalizing the negotiations is challenging because, among 
other things, uncertainties remain regarding the exact nature 
of the Presidential records to be transferred. According to the 
Archives, although the Archives and Bush Administration 
officials have held meetings on this topic, the Administration 
has not yet provided NARA with specific information on the 
volume and types of records to be transferred. System 
development is nonetheless proceeding based on the Archives' 
volume estimates and the information available so far.
    According to the Archives, receiving the electronic 
Presidential records and being able to process, search, and 
retrieve them immediately after the Presidential transition is 
critical so that they can respond in a timely fashion to the 
information requirements of the Congress, the former and 
incumbent Presidents, and the courts.
    Challenges remain for the Electronic Records Archives 
program in both the near and long term. In the near term, the 
Archives has to complete the testing of the base system and 
define the requirements and the scope of the Presidential 
system and complete its development. In the long term, it also 
plans to merge the base system and the Presidential systems 
into an integrated whole. Meeting these challenges will be 
important to achieving the ultimate aims for the Electronic 
Records Archives, automating the Archives' records management 
and archiving lifecycle, and preserving and providing access to 
all types and formats of electronic records.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer questions at the appropriate time.
    Senator Carper. Ms. Koontz, thank you very much for that 
statement.
    Our last witness on this panel is Paul Brachfeld. Mr. 
Brachfeld, you are recognized. Thank you very much for coming.

  TESTIMONY OF PAUL BRACHFELD,\1\ INSPECTOR GENERAL, NATIONAL 
              ARCHIVES AND RECORDS ADMINISTRATION

    Mr. Brachfeld. Mr. Chairman, I thank you for the 
opportunity to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Brachfeld appears in the Appendix 
on page 76.
---------------------------------------------------------------------------
    Senator Carper. Thank you.
    Mr. Brachfeld. NARA represents America's past like no other 
agency. We hold the treasure troves of our Nation's history. 
However, as an organization, we must live in the present while 
preparing for the future that focuses upon electronic records. 
Today, I will be quite candid in discussing what I and my staff 
have observed during my tenure as the IG.
    Archivist Allen Weinstein has in tangible ways supported my 
office as well as me personally. However, our work comes at a 
price. In the wake of certain investigations and significant 
audits conducted by my office, my staff and I have been met 
with significant resistance and unfounded challenges. Our 
audits and investigations have consistently identified 
challenges in core elements of NARA's operations that we 
believe by definition constitute material weaknesses.
    While preservation work stations sit empty in our world 
renown labs due to funding and staffing constraints, 
contractors siphon funds for projects that are ill-defined, 
poorly managed, and fail to meet user needs. While millions of 
dollars flow to the Electronic Records Archives program, which 
to date is well over budget and has failed to meet deliverable 
dates and other IT related contracts, archivists struggle under 
resource constraints to process and preserve the ever-expanding 
quantities of records arriving at NARA every day. While NARA is 
exposed to significant frauds and the loss or theft of millions 
of dollars worth of accountable property, such as laptops, 
desktops, and servers, Presidential artifacts sit unprocessed 
and vulnerable due to limited resources.
    Finally, the importance of these issues is magnified by the 
fact that the Archivist and I share the belief that NARA is, by 
definition, a national security agency, as we hold the vital 
records of virtually every Federal agency, as well as those of 
other entities, such as the Warren and 9/11 Commissions.
    I will dedicate the balance of my testimony to electronic 
records issues. I am also available to discuss other audit and 
investigative work products produced by my office, touching 
upon areas ranging from the preservation of holdings, 
processing and accessing Federal records or the recovery of 
hundreds of stolen Federal records via our highly successful 
and unique Archival Recovery Team, or ART, concept recently 
featured in the April edition of Smithsonian magazine.
    With regard to Electronic Records Archives program, in 
December 2001, nearly 7 years ago, I first approached the 
former Archivist about the need for audit coverage of the ERA 
program by stating resources have not been assigned to the OIG 
to facilitate our independent analysis of the program and to 
serve as a basis to report to the Archivist, Congress, and the 
American people on the status of the ERA program. Stakeholders 
actively involved in designing, building, and coordinating the 
deployment of ERA may be blinded from identifying issues that 
exist and call out for identification.
    In subsequent meetings, such as in April 2002, I requested 
audit positions to support, again, the fledgling ERA program. 
The former Archivist, John Carlin, told me he could give me 50 
people and I still couldn't cover it, so he asked me how I 
thought I could do it with just two. I responded, I would take 
the two, but none were received.
    Dedicated ERA audit resources sought by the OIG in budget 
submission after budget submission were not forthcoming, even 
as I defined the value of independent, dedicated, and skilled 
oversight over this critical program could not be overstated 
and the risk of not performing this function unacceptable. GAO 
Audit Report 03880, issued in August 2003, defined NARA's need 
to staff key unfilled ERA positions to mitigate the long-term 
risk to the acquisition. In meetings with the GAO, I urged them 
to define that one of the key unfilled ERA positions, just one, 
dedicated to NARA OIG to support independent expert oversight 
of the program and related contractors, was sorely needed. 
Regrettably, the GAO did not act upon this request.
    Unfortunately, it came as no surprise to my office when on 
July 27, 2007, NARA issued a Cure Notice to the ERA prime 
contractor for ``failure to make progress in the work so as to 
endanger performance under the subject contract.'' Indeed, the 
impact of delays and cost overruns--and I was told before this 
meeting by my staff that we are now up to $15 million as of 
March 2008--is significant and profound. While I do not know if 
or when ERA will be fully operational, any additional delay 
will adversely impact other narrow operations, requiring NARA 
to consume additional scarce dollars to sustain the Archives' 
research catalog or develop other vehicles that bridge the gap 
until ERA meets baseline functional requirements.
    Finally, in the fall of 2007 with the support of Archivist 
Weinstein, this office was able to staff a dedicated ERA audit 
position. One need not have been a visionary or a soothsayer to 
anticipate the problems that have encumbered the ERA program. 
We hope that at this late date, the OIG audit support will 
prove of value.
    Changing subjects, in April 2007, an article raised my 
concern as to the condition of the White House records as under 
the Presidential Record Act (PRA), Bush 43 Presidential records 
will accrue to NARA. The ingestion of these records is to be a 
key and early benchmark in the successful deployment of ERA. 
Following the April 2007 article, I requested briefings and was 
informed by key NARA staff members that the Bush 43 
Presidential records development and transition to a new and 
effective recordkeeping system had not been accomplished and 
that records are being stored in a vulnerable production server 
environment. After looking into this, I found an internal NARA 
report for the fourth quarter of 2006 where a NARA official 
reported that they continue to work on matters related to 
management of electronic records by the Executive Office of the 
President, Office of Administration.
    The problem for my office is that concerns as to access 
issues or functionality of White House recordkeeping systems 
were never directed to my attention by knowledgeable NARA 
officials prior to press accounts reaching my desk. Thus, I am 
not afforded the opportunity to address a significant condition 
which will potentially impact a major NARA program that falls 
under my statutory jurisdiction.
    I am aware of momentum to provide NARA additional authority 
to ensure Federal agency compliance with records standards, 
most notably with regard to the internal preservation of 
electronic records. I believe that such legislation and related 
funding is required. If NARA does not assume this role, then I 
ask who will. NARA traditionally has not viewed itself as an 
enforcement entity, but rather one that focuses upon 
collegiality and relationships.
    I believe that given limited cognizance into agency 
recordkeeping processes, a void exists in which inappropriate 
treatment or loss of Federal records may well be occurring. 
This position may be alien to my peers at NARA, but I come from 
a dual law enforcement and audit background and believe that 
additional powers, authority, and resources are needed in this 
area. The consequences of failed recordkeeping at Federal 
agencies today will adversely impact our Nation tomorrow.
    In terms of personnel and budget, NARA is not large, but 
its mission surely is. I am an Inspector General. My statement 
today will most certainly have repercussions, but my candor 
reflects my statutory duty to this Subcommittee and the 
American taxpayer. I thank you for the opportunity to testify 
and I am available to take any questions you may have.
    Senator Carper. Mr. Brachfeld, thank you very much for that 
testimony.
    We will have a number of questions for this panel. Let me 
just start off, if I could, with Professor Weinstein. Before I 
begin to ask any questions, I just want to give you an 
opportunity, if you would like, to comment on some of what Ms. 
Koontz and Mr. Brachfeld have had to say in their opening 
statements. You may want to talk a little bit about some of the 
management challenges that they highlighted and let us know on 
the Subcommittee how you are dealing with those.
    Mr. Weinstein. Sure. Thank you, Mr. Chairman, for this 
opportunity. The Inspector General's statement is puzzling on a 
number of counts. First, Mr. Brachfeld points to my support for 
his office, which is genuine, and for him personally, which was 
genuine, on a range of issues. He then castigates National 
Archives staff for throwing up ``significant resistance and 
unfounded challenges.'' Whether the Inspector General and I 
agree or disagree, however, final responsibility for 
maintaining the National Archives rests on my shoulders, and 
inevitably there will be times when I prefer some other counsel 
to Mr. Brachfeld's point of view. But let there be no mistake, 
the Inspector General has no greater friend at NARA than this 
Archivist, who also respects the work of the Office of 
Inspector Generals government-wide. I work with Mr. Brachfeld 
to reduce waste, fraud, and mismanagement on all levels and 
will continue to do so.
    Mr. Brachfeld makes three assertions of fact, however, 
which need response. First, he concludes that, to date, the 
Electronic Records Archives has not been properly and 
thoroughly monitored. I disagree. Linda Koontz is right here 
and her colleagues at the Government Accountability Office have 
continually monitored the project. The Office of Management and 
Budget conducts similar full court press evaluations. The House 
and Senate Subcommittee members and staff demand monthly--at 
least monthly, sometimes more than that--reports on the state 
of progress for the Electronic Records Archives. And finally, 
our own National Archives Advisory Committee on the Electronic 
Records Archives, experts from all over the world, meet 
regularly to evaluate our progress. Time precludes a full 
outline of oversight to date, but it is considerable.
    Second, the Inspector General claims that the Electronic 
Records Archives system may never be operational. In fact, the 
first phase of the Electronic Records Archives becomes 
operational next month. There is no evidence that there is 
evidence, there is no denying that there have been delays, 
there have been cost overruns in this extremely important and 
challenging project. But little is to be gained by exaggerating 
and panicking. We have confronted the problems which caused 
these delays and the program is again on schedule and has been 
for some time.
    While I am head of this agency, Congress can count on the 
fact that we will not paper over problems. We will never paper 
over problems, but rather we will address them systematically. 
Electronic Records Archives has been new territory for everyone 
involved in the project, Chairman. It should not surprise 
anyone that there have been obstacles to overcome. But turning 
hills into mountains is no way to solve a problem. Assertion is 
no substitute for evidence or any window for proof.
    Third, the Inspector General takes us to task for failing 
to anticipate and resolve the problem of the missing White 
House e-mails. The Presidential Records Act was crafted by 
Congress with great care to respect the Separation of Powers 
Clause in the Constitution. I have counseled the White House on 
its responsibilities under the PRA and the Federal Records Act, 
not once, but a number of times. However, that counsel has 
always been given within the bounds of the law and the 
Constitution.
    Finally, I have been a strong and consistent advocate for 
maximum transparency in the Federal Government. Everyone who 
knows me knows that. But I think it is a mistake to assign to 
the National Archives, an independent agency, the role of 
policing the White House. Thank you, Mr. Chairman.
    Senator Carper. Thank you, Dr. Weinstein.
    A member of my staff described this as the 30,000-foot 
question. I don't know if it is 30 or 20 or 10, but the 
question deals with adequacy of resources. We all know that the 
Archives is given an extremely large mission, and some would 
argue relatively little resources to complete that mission. I 
would just ask Professor Weinstein and Mr. Brachfeld, as the 
protectors of our Nation's history and some of our most 
important artifacts, do you feel that you are given enough 
resources to fulfill the mission of your agency, and if the 
answer is no, what more might be needed in terms of staff and 
resources? And finally, are there any areas that you could 
shift your priorities at the National Archives to ensure that 
you are meeting the most important challenges in fulfilling 
your mission?
    Mr. Brachfeld. Senator, may I have the opportunity to 
respond----
    Senator Carper. Just briefly, if you will. I don't want to 
play too much ping-pong here, but just briefly.
    Mr. Brachfeld. I need to clarify a few matters very quickly 
for the record.
    Senator Carper. Sure.
    Mr. Brachfeld. One, in terms of monitoring the ERA program, 
I will give you one example. In June 2007, I met with the 
program director for the ERA program. He told me the program 
was on schedule. Deliverables were--in fact, the contract was 
ahead of schedule. My staff was present. In fact, two or three 
members of my staff.
    In July 2007, we issued a Cure Letter for fail to deliver 
on deliverables. That is the status that was provided to me. We 
have met with many officials in ERA. We have many sources that 
come to us. We have been told that the date for delivery of 
some iteration of ERA, whether it be--the capacity is 
undefined--would be in 2011. I have read in 2012. I have seen 
statements of 2015.
    There hopefully will be an ERA. I have been a proponent of 
ERA. I have been begging, literally begging for the resources 
to engage in ERA to help bring this home. I saw my role as to 
be a shepherd to assist the agency so the problems that we have 
unfolded, which I anticipated and stated for the record 7 years 
ago--and I didn't have to be Nostradamus--7 years ago, I warned 
of this. Given the resources, we may not be here today 
discussing this.
    Quickly, with the White House e-mails, let me make myself 
very clear on this. Those e-mails will accrue to the National 
Archives and Records Administration, to our programs. If our 
programs will be adversely affected, be it additional staff 
needed or be it additional resources needed, that affects my 
turf as an Inspector General. I thought that had I gotten 
timely notification, and, of course, part of my statutory 
duties is to protect our programs, I could have made efforts 
perhaps to address the matter in the early stage.
    I have worked with the White House in other matters. They 
have responded to my inquiries. They have responded to my 
questions. Given the opportunity, maybe information would have 
been gained that would have been helpful. Given that failing, 
perhaps I could have done a management letter to the Archivist, 
which becomes a public document and the Congress would have 
been made aware of the situation much earlier. It was just a 
question of me wanting to be engaged in an issue where I could 
exercise what I thought my authority. I am not trying to teach 
or alter constitutional law.
    Finally, I just want to make one thing clear. The Archivist 
and I truly are colleagues. When we meet, it is collegial. He 
is supportive. He has been a supporter of me. When my position 
was jeopardized, which it was because certain NARA staff sought 
to have me removed, he stood by me. So he is a good man and 
this is not between myself and him, and I will tend to leave it 
at that.
    Now, you asked about--getting back now, I am sorry, 
budget----
    Senator Carper. Adequacy of resources. Thank you for that--
--
    Mr. Brachfeld. Adequacy of resources. The National 
Archives, in my experience, and this is my experience, we have 
been an agency that is almost afraid to ask for what we need. 
There have been a number of my audit reports where I have said 
that we needed to get additional resources. We have a flood of 
records coming our way that we need to process, a literal 
flood. We have----
    Senator Carper. Because of the change in Administration?
    Mr. Brachfeld. Well, just records with--we are talking 
electronic record today, but paper doesn't stop. There is a 
flood of paper records still coming our way. There is a flood 
of electronic records coming our way. Our staffing has not 
really grown. Preservation needs, just like everything else, 
just like an infrastructure of a city, paper degrades. Film 
degrades. Mediums degrade. We have a tremendous need for 
preservation. We have IT security concerns that are very 
important because of the nature of the material we hold. We 
have physical concerns over our holdings.
    So I have been a proponent of defining our problems clearly 
and then going to Congress, going to OMB and clearly define 
what we need. Clearly, it is my belief, based upon our audit 
findings, and the bedrock of my work is audit, is that we do 
not have the resources to deploy to address the many challenges 
that impact NARA. There are many great people doing terrific 
work. I go to our preservation labs and I watch our 
conservators, who are amazingly talented, dedicated people, but 
I can't help but notice two or three-quarters of the work 
stations are empty. They are empty. But the documents that are 
weathering under time, they don't stop weathering under time.
    I think that we have strong needs, and in this time of 
fiscal constraints, everybody said that I understand, but I 
view National Archives as, A, a national treasure, which is why 
I am proud to work there, and B, and the Archivist and I 
discussed this probably the first time we met, I view the 
Archives as a national security institution. I won't go into 
public testimony and define what we hold, but I think a lot of 
people would be shocked if they understood what we hold. So I 
am concerned about the national security if people got access 
to the kind of records we hold. And, in fact, my office--taking 
off my audit hat and putting my investigative hat on, we have 
had cases very specific to that and have worked very closely 
with other law enforcement agencies, such as the FBI. So there 
are security concerns that affect our national security, as 
well, that need to be addressed. Thank you.
    Mr. Weinstein. I will answer that question very quickly.
    Senator Carper. Yes, if you would, please.
    Mr. Weinstein. I know you would like to move on. Yes, we 
need more money, we need more resources. I have gotten more 
resources for the Inspector General and I will continue to try 
to get more as he needs them for appropriate projects, and we 
need them throughout. We need them for new programs and old. We 
need them to help us with a program on developing civic 
understanding. We need them to deal with the backlog of 
materials that we can release to the American public. We just 
haven't processed them all. We need them to do the Electronic 
Records Archives. We need them for a variety of purposes.
    But let me also say this. When I came to the National 
Archives over 3 years ago, I made a point at that stage of the 
game of not trying to bury myself in a bureaucratic life. I 
have been up here on the Hill, as you well know, talking to 
your colleagues, your staff--in fact, your staff probably knows 
that I brought Mr. Brachfeld up here for his first encounter 
with your staff because I wanted that story to get out. I 
wanted his story, I wanted my story to get out.
    And Congress has been extraordinarily generous and 
supportive of the National Archives. I am not complaining about 
levels of support. But you asked about whether we can use more 
resources. The answer is yes, and I thank you for the resources 
you have provided thus far.
    Senator Carper. All right. Thank you. This Subcommittee 
deals a fair amount with IT projects and the ones that we seem 
to look at the most are the ones that have not gone well. IT 
projects are naturally a riskier investment than most other 
projects that are undertaken by our government. We have held 
several hearings investigating the reasons why so many IT 
projects are poorly planned and poorly preforming and it seems 
that many times it is because agencies, and I am thinking of 
the Census Bureau especially, but agencies have a tough time 
really defining what they want from the contractor and sticking 
to what they want.
    I understand that the Electronic Records Archives contract 
with Lockheed is worth more than $317 million and the total 
expected cost of the system is expected to be around $450 
million. I have a couple of questions regarding it.
    First of all, how much do you believe, Dr. Weinstein, that 
poor planning led to the Electronic Records Archives project 
being over budget and behind schedule? And second, what have 
you done to make sure that the project will stay on budget and 
on schedule?
    Mr. Weinstein. Mr. Chairman, with your permission, I am 
going to ask my Deputy Archivist here, Adrienne Thomas, to join 
me in responding. I will start and she will continue, the 
reason being that she retains her position also as the head of 
Administration and Finance at the Archives. This is what she 
was doing when I got there and she is an incredibly talented 
person in that regard.
    But just a few general comments on such projects. There are 
scholars in this audience who know the period better than I do. 
But if you looked at really creative, new, transforming moments 
in American technology--the atomic bomb, the space shot, the 
first shot into space, other things of this kind--I doubt that 
you would see more effective budgetary performance than we have 
had. These unprecedented projects almost--you have to 
experiment while you are trying to decide what works. Is your 
original plan better? You have to adjust that and change it. 
You can't depend upon established structures of a budget, and 
this is one of those projects, because if this works as we 
think it is going to continue working, and it has been working 
of late, then this is going to help transform in a positive way 
the work of every agency, not just in the Federal Government, 
but every agency, public and private, in the country and 
eventually in many other countries. That is a large claim.
    Now getting back to your point. Could there have been----
    Senator Carper. Just to restate my question, what role do 
you think poor planning played in where we have ended up? And 
second, just explain to us what you are doing to make sure that 
we get back on budget and on schedule.
    Mr. Weinstein. First of all, I don't think poor planning 
was a major factor here. I would also point out that we have 
not--this isn't a situation in which somebody has simply 
announced we have wasted $300 million and we are putting an end 
to this. There are other situations in the government where 
agencies larger and more prominent than ours have just said, 
that is that. We worked at it. We discovered belatedly that we 
may not have had the A Team from Lockheed Martin and Lockheed 
Martin acknowledged that fact. And so we got the A Team and the 
A Team has been performing effectively.
    Senator Carper. When did you finally get the A Team?
    Ms. Thomas. Basically, we were concerned about the 
development of the system long before Lockheed Martin admitted 
that they weren't going to make the deadlines and so forth. But 
until they reached the first point of deliverable, you don't 
have any proof that they are or are not going to deliver. When 
they finally did admit it, then we talked to the highest levels 
of the company and they realized that indeed they didn't have 
the best professional support that was needed for this 
contract, and at that point they basically said, we are going 
to replace these people. We are going to give you the highest 
level of professional support for this team.
    That is why the IOC slipped from September, which was the 
first deliverable that they were going to deliver, and we also 
wanted to make sure that this team was going--the second team 
was going to produce, so we restructured the contract.
    Senator Carper. Excuse me. Is this a cost-plus contract?
    Ms. Thomas. Yes, it is.
    Senator Carper. Has it been from the outset?
    Ms. Thomas. Yes.
    Senator Carper. Is it still?
    Ms. Thomas. Yes. However----
    Senator Carper. Is that smart?
    Ms. Thomas. It is really necessary for a development 
contract where you can't put into concrete exactly what every 
piece of requirement is. I mean, I think we did a very good up-
front planning effort, but development of IT contracts are 
still a back-and-forth iterative process to get the right sort 
of system in place, and that is what a cost-plus contract is 
for, basically, when you can't define every requirement down to 
the last nut and bolt.
    Senator Carper. Dr. Weinstein.
    Mr. Weinstein. Let me just add one point to this issue, not 
on the cost-plus issue, but on what we are doing now to prevent 
repetitions, if you will. Anyone who knows me knows that the 
one thing I am not is a technologist or a scientist, but I know 
how to read a budget and I kept a small organization alive for 
16 years on relatively little money. And one of the things that 
I am doing and that everybody else of consequence in our 
program at the National Archives is doing and that we are 
making certain Lockheed Martin is doing is we are monitoring 
this process. Is it working? Is it on time? Is it going 
according to the specs? Is it going according to the financial 
specs?
    We are monitoring this day by day by day, hour by hour by 
hour. There will be no slippage. If there is slippage at all, 
this Subcommittee and all of our other committees on the Hill 
will hear about it before these people leave for work that day, 
whoever is responsible, because there is no substitute 
whatsoever, as far as I can tell, for constant monitoring of 
the sort that Dr. Koontz and her colleagues do, for which we 
are very grateful.
    Senator Carper. All right. Thanks. Ms. Thomas, did you 
finish your thought, because I want to go to Ms. Koontz and ask 
her comment, as well----
    Ms. Thomas. The only thing I wanted to add is that we 
restructured the contract so that we took and basically created 
smaller deliverables and said that at the point that a 
deliverable was presented to us, that we would present it, and 
if it passed, then we would go forward with the next piece of 
the contract. But that was a drop-dead point where we could 
decide, that is all. So I think having done that and having now 
under our belt three different what we call drops of software 
that have passed the test, and the final test will be the 
testing that is going on now and IOC next month, and we think 
that is going to be the proof that we have got the A Team going 
and we have got a more strict monitoring approach in place.
    Senator Carper. All right. Does the Archives have, if you 
will, a back-up plan in place to turn to in case the Electronic 
Records Archives is not fully functional when this President 
leaves office?
    Ms. Thomas. We are fairly confident at this point that it 
is, but there is a back-up plan and that is the system that we 
used with the Clinton papers, a system called PERL. We don't 
think we are going to have to need it, but it worked for the 
Clinton papers, not--I would have to say in sort of a clunky 
way in that the Executive Office of the President (EOP) system 
that we are developing, will allow searching across all of the 
records. The PERL system that we used for President Clinton 
basically was applied to each one of the many different systems 
that we inherited from the White House and you have to search 
each one locally. So it is a clunky system, but it will work. 
It works for Clinton.
    Senator Carper. All right. Thank you. Ms. Koontz, let us 
hear from you on some of these issues, please.
    Ms. Koontz. First of all, I will say that we have been 
following the Electronic Records Archives since about 2001 and 
have worked really closely with NARA in terms of their planning 
as they have moved forward. One thing that I would like to say 
is about NARA's oversight to date. I think that they have been 
on top of the situation with the contractor. I think they 
detected early warning signs in the schedule. They took 
decisive action by issuing a Cure Notice when they thought that 
the contractor's failure to perform was threatening the 
performance of the contract.
    They have revised their strategy. They have come up with, 
as Ms. Thomas talked about, incremental deliverables, which is 
a proven way of doing system development, small increments, 
build a little, test a little, build a little, test a little. 
This is a very good approach. And I think we also saw as they 
moved forward working with the contractor that they always did 
independent analyses of things like the schedule so that they 
did not accept what the contractor proposed as the schedule 
unless they themselves were really convinced that it was 
realistic.
    I would say that I think they do face some risks with the 
Presidential system. We can't ignore the history that we have 
had some performance problems. We have had overruns. We have 
had schedule delays. And while I think NARA has taken some 
action to get things back on track, I think we have to 
recognize that we have a very tight schedule. We have a fixed 
end date, which is the Presidential transition. We don't know 
what all of the requirements are for the Presidential records 
because the NARA does not yet have all that information from 
the Executive Office of the President. And the milestones are 
generally being met by the contractor, but slightly late. So 
for that reason, I think this is a system still at risk.
    I would agree, too, with the need for a mitigation plan and 
that I know that NARA has a high-level plan for what they will 
do if they do not meet the date--if the contractor doesn't meet 
the date for delivery later this year, but I think that a more 
robust risk mitigation plan would be in order here.
    Senator Carper. Let me just ask, and I will direct this 
initially to Dr. Weinstein and Ms. Thomas, but has anyone at 
Archives been held accountable for poorly managing the 
contract?
    Mr. Weinstein. Would you repeat that?
    Senator Carper. Yes. Has anyone at Archives been held 
accountable for poorly managing this contract?
    Ms. Thomas. I think we disagree that the contract was 
poorly managed. As Ms. Koontz said, we from the beginning 
monitored what Lockheed Martin was doing. We had our own 
engineers testing behind their engineers. We were convinced 
that there were problems, but until you reach the first 
deliverable where they either put up or shut up in terms of 
whether they were going to produce something that was going to 
work or not, we really couldn't prove it. At the point that 
they missed their deliverable----
    Senator Carper. And when was that?
    Ms. Thomas. May or June 2007, and we can provide the 
precise date for the record.
    Senator Carper. And when they missed----
    Ms. Thomas. At that point, then we said--we took the 
problem to the president of the company. We got OMB involved. 
We got the E-Government person at the White House involved. We 
got their attention. They admitted that there was a problem 
with the team with the development. They replaced almost all of 
the team with much higher-level, sophisticated IT developers 
than had been on the team. We restructured the contract. I 
mean, I think we did everything that we could to manage the 
contract appropriately.
    Senator Carper. Dr. Weinstein, and then Mr. Brachfeld, if 
you have a comment. Go ahead.
    Mr. Weinstein. Let me personalize the answer to your 
question.
    Senator Carper. OK.
    Mr. Weinstein. I was brought into the--one of the things 
that--obviously, neither my deputy or I are there for 
everything that happens in the course of a day's work any more 
than you are there for everything that happens in the course of 
a Congressional day's work. Once the first indications came 
through that we were significantly behind schedule, I think it 
is fair to say that we both hit the ceiling and began 
immediately addressing the issues.
    In my case, I said there is only one way to address it. I 
have got to talk to Mr. Stevens, the head of Lockheed Martin, 
or I have got to just conclude this agreement.
    Senator Carper. Is he the CEO?
    Mr. Weinstein. Yes. And basically, that communication went 
through to him, and the point that it made was that any 
residual attitude that Lockheed Martin that they knew better 
than we knew what we wanted and what we needed was at an end. 
It is a very daunting thing. Congress brings in a Google or a 
Microsoft, whatever, and you are dealing with folks at the top 
of their game and there is a sort of a reluctance to 
necessarily challenge them on things they say they know, that 
they understand that they are doing. We discovered that 
Lockheed Martin could do it better, and they had been doing it 
better.
    Now, did they--so punishment No. 1, they came close to 
sudden death in terms of this contract. A very deep 
embarrassment had happened, given the fact that Lockheed Martin 
has talked about the effectiveness of this new technology.
    Punishment No. 2, no bonuses, no special supplements, no 
everything, all despite the fact that these cost-plus contracts 
have them built in. None of that went out. None of that money 
went out.
    Punishment No. 3, it is not the most comfortable feeling in 
the world for a major agency like ours to be snarling at this 
mega-corporation and saying, now we want you to perform at your 
best because you haven't been performing at your best. It was 
humiliating. It is humiliating. But that is what they have to 
live with. They have been on trial, and as head of the 
Archives, it is my responsibility for making certain that we 
get the fullest measure, the best of the best from them for 
every last day that they are under contract.
    You mentioned some figures. I can't comment on those 
because I don't know where you got them.
    Senator Carper. All right. Thanks. Mr. Brachfeld, the last 
word and we will go on to one more question and then we will 
turn to our next panel. But any comments on this exchange----
    Mr. Brachfeld. Real quickly. There is a lyric of a song 
that I talk about when I talk about contractors. It goes, ``a 
man who feels the space begins to need the walls.'' Contractors 
that don't feel walls, don't feel that they are getting tight 
oversight, sometimes bleed into space. They need to be looked 
at. There is no substitute for skilled IG oversight. That is 
why Congress created us. That is why the President signed into 
law the creation of Inspector Generals. That is why the Senate 
is moving, and I support this, into strengthening Inspector 
Generals. I think that our resource needed environment would 
have been helpful.
    I also want to note that up--again, this came as no 
surprise to me, the problems at Lockheed Martin. I had sources 
come to me. I often have both contractors and NARA staff come 
to me voicing significant concerns about the progress of ERA, 
and I had gone, as I frequently meet with senior management, 
specifically the Archivist and his senior staff, and I had 
conveyed concerns that I had heard. But again, I had not been 
given the resources, and a lot of this predates--some of this 
predates the current Archivist and he has worked to support my 
office. He has a limited deck of cards. He has a limited number 
of resources. I don't blame him.
    But I do state that there were indications of problems. I 
wish I could have been there. I wish I could have been more 
vigilant. I wish I could have caught this earlier on because 
there were ruminations. There was smoke and my staff was aware 
of that. Thank you.
    Senator Carper. Say that again, that lyric that you began 
with. What was it?
    Mr. Brachfeld. I am sorry, Senator?
    Senator Carper. You said you use a lyric from a song----
    Mr. Brachfeld. A man who feels the space begins to need the 
walls. What I mean about that--it is just like that. I have had 
30 years in government service. I started off in the Secret 
Service. In the Secret Service, the entire computer room was 
staffed by Secret Service employees. Now the government has 
contractors. Many times the contractors possess skill sets that 
the government does not have. They can use their knowledge, 
their positions, to compel modifications to contracts, 
alterations to contracts, etc.
    It is not just this. It is not just NARA. I came from the 
FCC before this and what we had going on there was pretty 
substantial, too. And I talk to my peers. This is the nature of 
the business and that is why you need a strong audit and 
oversight presence.
    Let me just say real quickly----
    Senator Carper. Real quickly.
    Mr. Brachfeld [continuing]. That one of the things that I 
have tried to do more than anything else is strengthen our 
compliance with OMB Circular A-130, Clinger-Cohen, etc. I want 
us--not just ERA--we have many other contracts. I want us to do 
contracting right on major IT systems from the beginning 
because if you don't have a foundation, you go askew and awry. 
So I have been there for this agency pushing that, and the 
agency has made strides. Thank you.
    Senator Carper. All right. Thank you.
    Mr. Weinstein. Mr. Chairman, 90 seconds?
    Senator Carper. Thirty seconds and then I want to get one 
more question in----
    Mr. Weinstein. OK.
    Senator Carper [continuing]. And then turn to our next 
panel.
    Mr. Weinstein. Mr. Brachfeld likes the song metaphors. I 
prefer speech metaphors. There is a famous Lincoln one that 
applies in this instance and it is the story of--Lincoln tells 
the story about coming across the road and there is somebody 
beating a mule over the head with a two-by-four and it was 
screaming, but it is not moving. And the stranger comes along 
and says, ``Farmer, you can't move the mule that way. That is 
idiotic.'' The farmer says, ``I know that, you jerk. I am not 
trying to move him. I am trying to get his attention.'' We got 
Lockheed Martin's attention in this process and we have had its 
attention constantly since then.
    Senator Carper. That is a little wisdom from Abraham 
Lincoln, and I don't know if it was Dave Matthews or not, but--
--
    Mr. Brachfeld. Do you really want to know?
    Senator Carper. No. Thank you, though.
    Last question for this panel is to switch topics a little 
bit. I understand--this will be actually more for you, Dr. 
Weinstein, but I understand that the Archives recently released 
a report requested by Congress that discusses how the papers 
written by the Founding Fathers of our Nation can be completed 
in a timely fashion and published online. Some of the entities 
working on these papers have been receiving both public and, I 
believe, private funds for over a half a century but aren't 
expected to complete their work for some time to come. Could 
you tell us just briefly how the Archives expects to accomplish 
this, and further, how much can Congress expect this project to 
cost?
    Mr. Weinstein. Let me take the first. Apparently you don't 
have a copy. I will make certain that you----
    Senator Carper. OK. Thank you.
    Mr. Weinstein. I will get copies for the rest of the 
Subcommittee.
    Senator Carper. There are really three questions. Let me 
just restate the questions and you can take them up. First, 
could you tell us briefly how the Archives expects to 
accomplish what we are talking about here? Second, how much can 
the Congress expect this project to cost? And the third 
question is, what is the benefit of publishing these papers 
online to the public?
    Mr. Weinstein. Well, Mr. Chairman, there are two ways in 
which people take a look at the writings of the Founders these 
days. They can look at them in these published, elegant, 
scholarly editions, there are hundreds of them now, 218 is the 
figure that I have been given at the moment, and these, of 
course, will not be looked at by the ordinary person who does 
not necessarily want six pages of footnotes for every reference 
of Thomas Jefferson's or George Washington's at the time.
    Then there is the possibility of putting all of these 
papers online. In fact, this whole concept, the current 
perception of it began in the office of one of your colleagues, 
Senator Leahy, who hosted David McCullough and myself and 
various other folks and we testified before Senator Leahy on 
this several months back. That is when we received the 
instruction that the Congress wanted a report.
    It is possible, and I think we have spelled out all the 
details, to have a situation not more than a few years from now 
in which every one of the papers of the major Founders of the 
country will be online in basic editions, without the entire 
textual apparatus--while the work goes on to complete those 
textual editions. At the same time, we can also put online at 
the same time those editions which are not completed yet but 
for which there is material that people may want to use, 
students, scholars, etc. All of that can be done so that what 
you are getting, then, at relatively little cost is free 
access, virtually free access to the entire corpus of the 
Founders. And it is about time, Chairman. It is about time.
    Now, how much will it cost? We are doing calculations now. 
Obviously, as soon as those are through, this Subcommittee and 
others will be the first to learn of it. But we have been under 
enormous time pressures to get this report done, and I should 
add that this report has been supported in large measure by the 
scholars who are involved, by those working on the existing 
editions of the papers of the Founders, but OMB has reviewed 
the report and has released it or else I wouldn't be here 
talking about it. So it is fairly close to a consensus document 
and the time has come, I think, to move forward on that.
    Have I left anything out, Ms. Thomas?
    Ms. Thomas. That is the main points. We think that this is 
a perfect example of something that should continue to be a 
public-private partnership and we think that with the goals and 
the methods that we have laid out in the report, that we will 
indeed engage many of the people who are in the business of 
giving private money to be much more interested in supporting 
this kind of an effort.
    Senator Carper. I understand that these private sources, I 
don't know if they are private foundations or not, but I 
understand they provide up to maybe half the total funding for 
these projects. How are the private foundations involved in the 
planning process?
    Mr. Weinstein. Well, private foundations have been involved 
in supporting these projects, Mr. Chairman, since the projects 
began in the 1930s and 1940s. Private foundations have always 
provided an underpinning, either through universities or 
through foundations or whatever it would be like. Congress has 
also supported these projects through the NHPRC and through the 
National Historical Publications and Records Commission 
(NHPRC)--I apologize for using an acronym--and also the 
National Endowment for the Humanities has funded some of this. 
It has been funded from a variety of sources. But for the first 
time, there would be a clear focal point for the funding.
    There now, by the count that I have been given, are 218 
volumes of these papers of the Founders that are already online 
and we would have another 125 volumes to go and the job would 
be done. So I urge you to support the process in Congress.
    I should add that Senator Cardin, who was with us 
yesterday--I don't want to speak for him, but he seems to be 
very supportive and enthusiastic about it. Congressman Larsen 
from the House was there, same, as well. So this has been a 
process that has involved Congress from the get-go and it has 
been in partnership with the private sector that we can get 
this job done.
    Senator Carper. All right. And before you all leave the 
witness table, let me just thank you very much for being here 
and for your testimony and for responding to our questions.
    I used to be State Treasurer of Delaware for about 6 years 
and we were audited every year by an independently elected 
official, the State Auditor, and every now and then, the State 
Auditor would offer a criticism. However, this was not 
something that would be shared with us internally as they went 
through their audit, but sort of after the fact. In addition, 
the way it was offered was not always well appreciated, and 
finally, the auditor and I actually just spent some time 
together and talked things through. We would try to maintain a 
good personal relationship and have a more constructive 
auditing process where we would be more inclined to take the 
recommendations of the audit to heart.
    It seems pretty clear to me that, Dr. Weinstein, you and 
Mr. Brachfeld have what seems to be a respectful personal 
relationship and I would just ask that you build on that and 
spend some time together talking more about the issues raised 
today. Maybe you will both feel better about the work that you 
are doing on behalf of our citizens.
    With that having been said, I want to thank each of you for 
coming today, for your stewardship, and for your testimony. We 
look forward to working with you to help give you the resources 
and the support and the direction that you need to make us all 
proud. Thank you very much.
    Mr. Weinstein. Thank you very much, Chairman.
    [Pause.]
    Senator Carper. All right. Welcome to our second panel of 
witnesses. We will hopefully not be interrupted by votes and we 
will be able to march forward to completion of our hearing. 
Thank you for joining us today and for your patience with us.
    Our lead-off witness in the second panel is Dr. Patrice 
McDermott.
    I understand you are the Director of OpenTheGovernment.org, 
is that correct?
    Ms. McDermott. Yes, sir.
    Senator Carper. I understand you assumed your current 
position after more than 4 years as the Deputy Director of the 
Office of Government Relations at the American Library 
Association. My office today was stormed by librarians from all 
over Delaware.
    Ms. McDermott. It is Library Legislative Day.
    Senator Carper. They have literally taken over Capitol 
Hill.
    Ms. McDermott. Yes. A good cause.
    Senator Carper. A great cause. Ms. McDermott was awarded 
her doctorate from the University of Arizona in political 
science and has an M.A. in political science from Brown 
University, and received a degree in library and information 
management from Emory University.
    Ms. McDermott. Right, and my undergraduate was at Florida 
State.
    Senator Carper. You have moved around.
    Ms. McDermott. Yes.
    Senator Carper. But we are glad you are here today.
    Our next witness is Thomas Blanton, Director of the 
National Security Archive. I understand, Mr. Blanton, that you 
have directed the Archives since 1992 and previously served as 
the organization's first Director of Planning and Research, 
starting in 1986. We are told, Mr. Blanton, that you are a 
series editor of the Archives online and print documentary 
publications and that you are a graduate of Harvard College, 
which is right down the road from where my oldest boy goes to 
school.
    Mr. Blanton. Yes, and I am almost up there with Ms. 
McDermott because I came there from Bogalusa, Louisiana, so it 
was a nice migration northward, traditional Southern activity.
    Senator Carper. I used to serve with a Congressman from 
Louisiana who later became governor and he went to school at 
Harvard, as well. But when he ran for Governor of Louisiana, he 
tried not to let people know where he went to college. 
[Laughter.]
    Mr. Blanton. When I used to say that is where I wanted to 
go to school, they would say, yes, Auburn, that is a very good 
school. [Laughter.]
    Senator Carper. Our third witness is Dr. Jim Henderson, who 
is representing the Society of American Archivists. Dr. 
Henderson served as Director of the Maine State Archives from 
1987 to 2007. In that capacity, he authored several papers 
relating to the proper implementation and management of 
electronic records. Have you ever been to Delaware to visit us 
in Dover?
    Mr. Henderson. I know Tim Slavin very well, if that helps. 
I have not been, though, to your archives.
    Senator Carper. Mr. Slavin is not only our Director of 
State Archives, but he is also a member of the Dover City 
Council, so he has a couple of interesting jobs.
    Dr. Henderson holds a bachelor's degree in international 
relations from the University of Maine and a master's and 
doctoral degree in political science also from Emory 
University. Did you two know each other at that time?
    Ms. McDermott. No.
    Senator Carper. All right. You traveled a lot of different 
paths in your life and today you come together here at this 
table.
    Our final witness is Dr. Martin Sherwin, University 
Professor of History at George Mason University. Previously, I 
understand, sir, that you were the Walter S. Dixon Professor of 
English and American History at Tufts University for 27 years, 
another school that my youngest one visited and liked a whole 
lot.
    Dr. Sherwin's recent biography of J. Robert Oppenheimer won 
a 2006 Pulitzer Price for biography, the National Book Critics 
Circle Award for Biography, and the English Speaking Union Book 
Award. Congratulations on all those counts.
    We welcome you all. We thank you for joining us. Your 
entire testimonies will be made a part of the record. If you 
would like to summarize, feel free, but thank you for coming.
    Dr. McDermott, why don't you lead us off.

         TESTIMONY OF PATRICE MCDERMOTT,\1\ DIRECTOR, 
                     OPENTHEGOVERNMENT.ORG

    Ms. McDermott. Thank you, Chairman Carper, for the 
opportunity to speak today on the role of the National Archives 
and Records Administration in protecting our Nation's history, 
and thank you for holding this oversight hearing on the 
critical issues facing our government in the area of preserving 
and providing access to our history.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McDermott appears in the Appendix 
on page 83.
---------------------------------------------------------------------------
    In my testimony today, I want to discuss a number of roles 
that NARA has traditionally held and new ones it is being 
called to take on. It is critical, I think, that the 
Subcommittee fully realize, as you do, that NARA is probably 
the only agency in the Executive Branch that has, and is seen 
by the public to have, access to government information as its 
primary mission.
    While that mission has been understood to encompass 
primarily information that, for a variety of reasons, is deemed 
historically significant, NARA is increasingly being looked to 
as a site to locate new initiatives and offices pertaining to 
public access to contemporaneous government information. These 
include the newly mandated Office of Government Information 
Services, created by the Open Government Act, and an office 
that will have responsibility for implementing the Memorandum 
on Designation and Sharing of Controlled Unclassified 
Information, better known as sensitive but unclassified (SBU) 
information. This latter office will have the task of bringing 
order to the multiplicity of control markings, such as SBU, 
FOUO (for official use only), across the government that are 
meant to safeguard information that is not classifiable but 
information that is arguably not for immediate public 
disclosure.
    The Open Government Act established the Office of 
Government Information Services specifically at NARA. A number 
of other venues were considered and they were all dismissed and 
we were all agreed that NARA was the best home for this because 
of its mission of providing access to public information. There 
is more in my written testimony, but I just want to say today 
that we urge your support of NARA's ability to create and 
sustain this new office and to make it function for the benefit 
of public access to Federal records within a contemporaneous 
time frame. That is going to take some funding, and I know that 
is not the purview of this Subcommittee but it is a major 
issue.
    The Controlled Unclassified Information Implementation 
Office is also to be housed at NARA, and the new CUI framework 
will continue to affect the media's ability to keep the public 
informed and the public's ability to press government action to 
improve safety and security. As laid out in the White House 
memorandum, this new framework contains no opportunities for 
public engagement or possibilities of review of marked 
information. For those of us who care about ensuring 
limitations on control markings that foreclose public access to 
unknown volumes of government information, NARA is seen as a 
good home. Again, this is not part of its traditional mission. 
This is contemporaneous information and it will need the 
necessary funds to make this work and ongoing Congressional 
oversight and encouragement to make sure that it is working 
properly for the benefit of the public, not just for the 
benefit of government, as the structure laid out by the White 
House does not lend itself to the benefit of the public. It is 
not anywhere considered in the White House framework.
    I want to turn now to records and e-records management. In 
1982, the Committee on Records of Government proclaimed that 
the United States is in danger of losing its memory. They were 
talking about paper records. Our memory is at much greater risk 
now, and of course this is not just the loss of our family 
photos, as it were, but of that information necessary for 
accountability. Across the Federal Government, we do not know 
with any certainty that all of the documents and information 
that we need to write our history, to understand policy 
development and implementation, to trace who knew what, read 
and edited what document, are being preserved.
    Why is our memory in danger? Because, as you noted, the 
vast majority, if not all, of our documentary and information 
history is being created electronically, but not necessarily 
well managed and preserved electronically. The various reasons 
given for not preserving it are ones that we have all heard 
before. The volume is too great. We don't have the resources to 
manage all this. It is not of importance to the leadership of 
our agency.
    Another reason, frankly, is that Congress has been lax in 
holding agencies accountable and for ensuring that records 
management is seen as part of the mission critical components 
of every department and agency. While Congress is rightfully 
alarmed at the loss of documents and information through a 
system breach, it and the Executive Branch have turned a blind 
eye to their loss through indifference. The end result is the 
same, except with a difference or intentional failure to 
preserve, we will not necessarily know what has been taken from 
us and will not be able to restore our history to its previous 
status.
    In a report that we cooperated in with the Citizens for 
Responsibility and Ethics in Washington, we exposed a number of 
major problems in this regard. First, there is a lack of 
consistent policies, as evidenced by the fact in the study that 
many respondents used multiple techniques to preserve e-mail 
records at their agencies.
    Second, as you have documented, movement toward electronic 
records systems have been unacceptably slow. Most agencies do 
not have an electronic records management system and they are 
getting no real pressure from NARA to institute them.
    Third, agencies lack training and compliance monitoring, 
two problems that could easily be cured by reforming agency 
policy and increased NARA involvement. The blame in terms of 
compliance falls most squarely on NARA, which has a statutory 
obligation to promulgate standards, procedures, and guidelines 
and to conduct inspections or surveys of the records and 
records management programs and practices within Federal 
agencies. NARA has elected, however, to limit its role to 
providing guidance only, with little or no agency follow-
through, and it has abandoned its practice of conducting annual 
audits of agency compliance.
    At a symposium last fall, NARA was told by agency personnel 
that the failure to audit meant a failure of records 
management. I am therefore not surprised at the testimony of 
Mr. Brachfeld in this regard. NARA's approach has to change and 
it is clear that this will not happen without Congressional 
pressure.
    A couple other things very quickly. Many of the partners in 
OpenTheGovernment.org have serious concerns about the decision 
of NARA not to capture a snapshot of agency websites at the end 
of this administration. They are going to continue to do them 
for the White House. They are going to continue to do them for 
a change of Congress. We feel that these are important point-
in-time documentations of our policy and political history. 
NARA did it at the end of the Clinton administration. It has 
proved valuable, and we think it will prove of ongoing value in 
looking from administration to administration at how things 
change.
    And finally, in terms of public access to the records of 
our government, NARA has taken the lead to provide digital 
access to non-digital records. They have also been a leader in 
looking for private sector providers for digitization of 
records that were created and preserved in a non-digital 
format. Their practice in this area has gradually improved, but 
they are also an example of a more general problem across the 
Federal Government. The government is not willing to pay for 
the digitization of its non-digital records or to explore non-
commercial models, such as consortia of libraries and others, 
for the provision of this service.
    And what happens then is that agreements are made with 
commercial providers who do this for free, but the public has 
very restricted access. They have to pay for it for 5 to 7 or 
more years, or they have to go to a facility of the entity, 
such as NARA, that has turned over its records to this private 
entity. They also are not in accordance with the Paperwork 
Reduction Act--no other entity is allowed to come in and 
digitize those documents. OMB did a study or did a survey in 
2006 looking at these and we ask you to ask for that 
information and conduct oversight.
    Thank you for the opportunity to speak to you. I am happy 
to answer any questions. I apologize for going over.
    Senator Carper. Dr. McDermott, thank you very much.
    Mr. Blanton, you are recognized. Please proceed. Thank you.

  TESTIMONY OF THOMAS BLANTON,\1\ DIRECTOR, NATIONAL SECURITY 
             ARCHIVES, GEORGE WASHINGTON UNIVERSITY

    Mr. Blanton. Mr. Chairman, thank you very much for holding 
this hearing. You have my written statement and I would just 
like to summarize and make five points.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Blanton appears in the Appendix 
on page 90.
---------------------------------------------------------------------------
    First is to say where I am coming from. We file Freedom of 
Information requests. We do research. We are a nongovernmental 
organization. We have worked in every National Archives 
facility except maybe the Herbert Hoover Library, and we 
brought the lawsuit that saved 40 million White House e-mail 
from the Reagan, Bush I, and Clinton Administrations.
    I have to say, just commenting on the earlier panel, 20 
million of the Clinton e-mail were Presidential records, but 12 
million of them were Federal records. So the idea that there is 
a constitutional bar against the National Archives getting 
involved in the White House recordkeeping practices is absurd. 
It is really a red herring. The National Archives has chosen or 
been too intimidated to get involved. I just want to make that 
point. That is where we are coming from.
    Senator Carper. Say that again. The National Archives----
    Mr. Blanton. The National Archives has been intimidated or 
too shy to push the envelope. It was shy against the Reagan 
White House, against the Bush I White House, against the 
Clinton White House, and it is shy today. That is a kind word, 
I think, for its behavior in this regard.
    Senator Carper. I understand. We use code words, too.
    Mr. Blanton. We use code words, too. I am trying to be nice 
because I remember a Louisiana Congressman named Joe Waggoner 
who said to Jack Kennedy on the campaign trail something like, 
``Do you need me to come out for you or against you, whatever 
would help the most.'' [Laughter.]
    So I am here to help.
    The second point I want to make is just the big picture. 
The National Archives fundamentally is almost completely 
overwhelmed, drowning in two rising tides, one electronic 
records, one the classified and declassified records. I just 
want to say it is a tiny agency with an enormous mission and a 
level of resources--its total proposed budget is the equivalent 
of one of the Marine One helicopters. They are asking for a 
fleet of 28 of them to shuttle the President around, $400 
million each.
    So this crisis, and this is my third point, electronic 
records, there are lots of data out there about it and what I 
am saying about electronic records in my prepared testimony is 
not new. It really comes from the National Academy of Sciences, 
the National Research Council, which basically said about the 
Electronic Records Archives that you heard about, cleaning up 
after the fact is going to leave the National Archives behind 
the curve permanently unless Congress and the Archives require 
the agencies to build in archiving when they build their 
systems.
    Look at the White House e-mail example, the current White 
House. They junked their archiving system when they moved from 
one e-mail base, Lotus, to a Microsoft system. They junked 
archiving, built a new e-mail system. Everybody started to use 
it. Some of the people started to use the Republican National 
Committee e-mail system, as well. Nobody required them to have 
an archiving system. The National Archives kept having 
meetings, but nobody went to them and said, you have got to 
live up to the law. As soon as they junked that archiving 
system, the White House was breaking the law, the Federal 
Records Act and the Presidential Records Act. But what we get 
from the National Archives is a list of the series of meetings 
they had talking about the problem.
    The National Archives can hardly even deal with the 
existing backlogs--this is my fourth point--of classified and 
declassified records. On declassified records, President 
Clinton's Executive Order, continued by President Bush, 
resulted in the release of more--declassification, I should 
say--of more than a billion pages of historically valuable, 25 
years old or older, records that belong to the American public, 
essential to our history, essential to Marty Sherwin's work and 
his Pulitzer Prize and to all of our accountability of our 
government.
    And yet out of that more than a billion, 400 million pages, 
while they are declassified, haven't even been put on the 
shelves for us to use because National Archives is so 
backlogged, doesn't have the resources or the staff. At the 
Ford Presidential Library, the CIA put in money to scan a bunch 
of documents that had intelligence information in them, took 
90,000 documents, processed them, and sent them back to the 
Ford Library. Only 19,000 of those have gotten onto the 
shelves. A huge backlog. The National Archives is totally 
behind the curve.
    The only way out, I think, is for Congress to mandate, to 
change the standards, to put a statutory basis for the 
classification system, change the front end. Just like you 
engineer an IT system so it has archiving in it, you have got 
to engineer a classification system so you actually have real 
cost-benefit analysis and real disincentives for that very 
first stamp that says, ``Secret,'' because that generates a 
stream of costs all the way down the road.
    Congress also, I think, needs to do something about 
historical records and mandate--the way Congress moved on the 
Nazi war crimes or the Kennedy assassination, huge successes 
and major declassifications. They had new standards for the 
review. They put in independent review boards and they said the 
presumption is release. We have got to do that for everything 
that is more than 25 years old or we are going to be sitting 
there with 400 million more pages, or 800 million more pages as 
a backlog a few years hence.
    And the final point I just want to make, because I am 
running down to my last seven seconds, is that right now, the 
National Archives is drowning. And to totally push the 
metaphor, there has got to be a sea change in the Archives' 
role. You heard the IG down here sitting where Mr. Sherwin is 
sitting today saying, we are an agency that has been 
historically afraid to ask for the resources we really need. 
Well, the National Archives is also an agency that has been 
historically afraid to ask other agencies to obey the law, 
especially the White House, and Congress is going to have to do 
the backbone transplant.
    The National Archives has the authority, the legal 
authority under the Federal Records Act, to tell the White 
House how to keep its e-mail, but it is not doing it. Congress 
needs to go in there, mandate those standards, mandate the 
archiving standards to the agencies. They spend $68 billion on 
IT purchases per year. The Electronic Records Archives entire 
annual budget for next year is only $67 million, a drop in the 
bucket. Clean up after the fact.
    On the classification system, agencies spend $8 billion 
minimum, probably more, on classifying and keeping the record, 
only $44 million on release. Congress has got to tell them they 
have got to do better. Take 5 percent of your total cost and do 
your clean-up, and that is the only way we are going to get out 
of the mess.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you for your testimony and the 
helpful way you constructed and presented it. Thank you very 
much.
    Dr. Henderson, welcome. Thank you for joining us.

  TESTIMONY OF JAMES S. HENDERSON,\1\ FORMER STATE ARCHIVIST, 
STATE OF MAINE, REPRESENTING THE SOCIETY OF AMERICAN ARCHIVISTS

    Mr. Henderson. Thank you, Chairman Carper. As you 
mentioned, I served as the Director of the Maine State Archives 
and I have got similar anecdotes that unfortunately would----
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Henderson appears in the Appendix 
on page 100.
---------------------------------------------------------------------------
    Senator Carper. Who appointed you?
    Mr. Henderson. I was appointed by the Secretary of State in 
a very interesting fashion, and nominated by the Secretary of 
State, confirmed by the State Senate, and the salary has to be 
approved by the Governor, so it is in all kinds of ``don't mess 
with this guy.'' And a 6-year term, by the way.
    Senator Carper. A 6-year term, OK. Thank you.
    Mr. Henderson. Yes. well, I wasn't afraid to ask a lot of 
times, but I didn't get the answers that we wanted much of the 
time. But for now, I have maintained my contents with the 
archival community since last year and today I am representing 
the Society of American Archivists.
    Just a bit about them. They were founded in 1936 and the 
Society is the largest organization of professional archivists, 
with 5,200 members in the United States and abroad. Just 
specifically, archivists ensure authenticity, integrity, 
preservation of and access to historical records, and 
authenticity means is this really a Jefferson paper or not and 
make sure you keep that information.
    We believe that this important oversight hearing is long 
overdue. The National Archives and Records Administration and 
the National Historical Publications and Records Commission are 
essential to ensuring government accountability and 
documentation of our history. They have been overlooked and 
underfunded for far too long, in our opinion.
    I touch briefly on three key areas: The challenge of 
managing Federal electronic records, the importance of, if I 
may, NHPRC, and the connection between records management and 
freedom of information.
    NARA and others have struggled for decades with the 
challenges of managing electronic records. In fact, just as an 
aside, the NHPRC funded a retreat for archivists in the 1990s 
that attempted to educate us about just what was coming down 
the pike and also shortly thereafter we had the demonstration 
of Armstrong v. The Executive Office of the President by the 
National Security Archives, saying these things really are 
records. But we had to bring those things back to our States.
    NARA's Electronic Records Archives project stems from years 
of basic research such as this, including how to even define 
records in the new environment and keep them accessible over 
hundreds of years. Many records will remain outside the 
Electronic Records Archives and be lost if agencies fail at 
least to follow NARA's guidance. This will not be a priority 
unless Congress mandates it and provides necessary funding. 
NARA is no match for a huge agency serving substantial 
political constituencies with little regard to records 
management, and here is true confession No. 1 on my life.
    In the bureaucracy before becoming the State Archivist, I 
was in the Secretary of State's office as a Deputy Secretary of 
State and this nice lady came by one day to help me schedule my 
records and organize those things and, wait a minute, I had 
elections to run and corporations to file and I really did not 
understand what I should have understood, but somebody should 
have rapped me on the head at that point. But that is the 
problem. It is not a priority for many of these agencies.
    Slowing the loss of these records requires close scrutiny 
by Congress, some tolerance for uneven progress, and adequate 
funding of the Electronic Records Archives.
    Now to the National Historical Publications and Records 
Commission. NHPRC helps Archives preserve and provide access to 
historical records. It is the only Federal program that 
concentrates on archival records that convey, among other 
things, a shared national experience from generation to 
generation, something that we need especially in these days of 
increased migration and the more complexity of our own 
population. Documenting personal rights is another element of 
these records, and providing evidence to hold governments 
accountable.
    Since 1964, NHPRC has awarded over $175 million to 4,300 
projects in 50 States. It has helped State archives preserve a 
detailed record of State-operated Federal programs and 
supported regrant projects in local communities, with $5.8 
million matched by State funds of $8.4 million and additional 
funds by the local groups themselves. Regrant is something 
where NHPRC gives a State money to then grant these smaller 
institutions.
    Today, community record repositories, however, these 
smaller institutions, receive electronic equivalents of the old 
Civil War letter, the business journal, or the community 
photographs. Digital photos, spreadsheets, even e-mails often 
literally sit on a shelf or on a hard drive in an aging 
computer. Without attention, they die.
    Two electronic records grants were crucial to Maine. One 
produced a strategic grant for managing electronic records, 
providing the guidance needed to educate the State's 
information technology agencies about the preservation 
challenges. The second supported the Maine Geoarchives that now 
captures, appraises, and preserves Geographic Information 
System records. Both of these provided the credibility and 
expertise of the Archives to become a lead agency for planning 
a well-managed e-mail system which should improve retention, 
speed retrieval for legal discovery and Freedom of Information 
requests, and enhance agency efficiencies.
    But for the fourth consecutive year, the President has 
proposed no funding. The Society of American Archivists 
strongly objects and asks Congress to appropriate the fiscal 
year 2009 funding at the fully authorized level of $10 million 
for the grants and $2 million for administration.
    H.R. 5582 would reauthorize the NHPRC at an annual level of 
$20 million for the years 2010 through 2014. We urge you to 
introduce and speed passage of the companion bill.
    Finally, on Freedom of Information, I was and continue to 
be a member of Maine's Freedom of Information Coalition, which 
includes news media and public interest groups. An effective 
archives and records management program is inseparable, I 
believe--we believe--from an effective Freedom of Information 
policy. Without the requirements to retain the records, Freedom 
of Information requests and Congressional requests would return 
very little useful information. The Society of American 
Archivists supports sufficient funding for the Office of 
Government Information Services and its Freedom of Information 
Act ombudsman within NARA.
    Finally, archival institutions have looked to NARA as a 
model for records management and preservation. Its work has 
been vital to develop needed standards, policies, and 
legislation. We hope you will continue these oversight 
hearings, recognizing the critical importance of NARA and the 
work of the NHPRC, and will provide the funding to get that job 
done well.
    Thank you for the opportunity.
    Senator Carper. Dr. Henderson, thank you very much.
    Our last witness on this panel and this day is Dr. Martin 
Sherwin. Dr. Sherwin, please proceed. Thank you.

    TESTIMONY OF MARTIN SHERWIN,\1\ UNIVERSITY PROFESSOR OF 
   HISTORY, GEORGE MASON UNIVERSITY, REPRESEING THE NATIONAL 
                     COALITION FOR HISTORY

    Mr. Sherwin. Thank you, Senator Carper. I appear here today 
representing the National Coalition for History (NCH), a 
consortium of over 60 historically-oriented organizations under 
the capable leadership of Lee White.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sherwin appears in the Appendix 
on page 104.
---------------------------------------------------------------------------
    My full written testimony covers many issues critical to 
our concerns today, including, first, the serious need to 
expand the financial and human resources allotted to the 
National Archives and Presidential libraries.
    Second, the benefits of creating and passing a Senate 
companion bill to H.R. 5582, to reauthorize the National 
Historical Publications and Records Commission.
    Third, funding for the repair and restoration of many of 
the older Presidential libraries.
    Fourth, the need to support the transfer of the manuscript 
collections held by the Archives to digital formats so they may 
be accessed from the web.
    Fifth, the need to do something to speed up the 
declassification of government records.
    Sixth, the disgraceful disappearance of millions of White 
House e-mails written between March and May 2003 in the run-up 
to the Iraq War.
    It also addresses a more general and, I think, profoundly 
important issue, the relationship between Presidential records 
and our democracy.
    In 1941, at the dedication of his library, President 
Franklin Roosevelt clearly articulated why the National 
Archives and the Presidential Library System are so vital to 
the vitality of our democracy. The dedication of a library is 
in itself an act of faith, he said. To bring together the 
records of the past and to house them in buildings where they 
will be preserved for the use of men and women in the future, a 
Nation must believe in three things. It must believe in the 
past. It must believe in the future. It must, above all, 
believe in the capacity of its own people to learn from the 
past that they can gain in judgment in creating their own 
future.
    Forty-six years ago, I was a young Lieutenant JAG in the 
U.S. Navy trying to decide whether to study law, business, or 
history. Then in October 1962, I participated in the Cuban 
Missile Crisis and my experiences during that extraordinary 
event led me to dedicate my career to understanding the 
principles, assumptions, and details of American politics and 
foreign policy.
    Anyone so dedicated will confirm that it is in the nature 
of the political process of any government, and the U.S. 
Government is no exception, that much of what we believe about 
contemporary decisions will be revealed by historical research 
to have been incorrect, or at best partially correct. And I 
submit that our democracy cannot remain robust without this 
constant historical auditing of our government's behavior.
    Just as the press is the fourth estate of our democracy, it 
is clear to me that President Roosevelt was making the point in 
1941 that history is its fifth and equally essential estate. 
Ominously, the current Administration does not appear to share 
President Roosevelt's view that sustaining our way of life 
depends in important ways on our access to our government's 
history.
    Under the Presidential Records Act of 1978, Presidential 
records were to be released to historians and the public 12 
years after the end of a Presidential administration. However, 
in November 2001, President George W. Bush issued Executive 
Order 13233 that gave current and former Presidents, their 
heirs or designees, and former Vice Presidents broad authority 
to withhold Presidential records or delay their release. I 
consider this an outrage, nothing less than a frontal assault 
on the principle of open government that sustains our 
democracy.
    The President and Vice President are public servants, 
elected to office to serve our Nation, not as dictators, not as 
they define their service, but as our laws, our traditions, and 
our institutions define them. After their tenure has expired, 
it is the public's right to know in a timely manner the details 
of how they went about fulfilling their responsibilities. Their 
actions are not a privileged secret that they and their 
families have the right to control. That is how dictatorships 
operate. That is how totalitarian societies function. That is a 
certain recipe for corruption. I urge every Senator who is 
truly committed to sustaining the future of our democracy to 
vote to assure that the 1978 Presidential Records Act is 
restored.
    At a recent hearing before the Senate Judiciary Committee 
on the completion of the Founding Fathers project that received 
support from the National Historical Publications and Records 
Commission, Historian David McCullough said, ``you can tell a 
lot about a society by how it spends its money. Here is our 
chance, and it is long overdue to show what we care about, what 
we value, and what we are proud to pay for.''
    I join David McCullough in urging the rejection of the 
President's zero funding proposal for NARA and the National 
Historical Publications and Records Commission and request that 
Congress appropriate funding at the fully authorized level, $10 
million for the NPRC National Grants Program and an additional 
$2 million for staffing and related program administration.
    In conclusion, when your constituents elected each of you, 
they entrusted you with great responsibilities. I submit that 
one of those responsibilities is to be stalwart stewards of 
America's past. Decisions you make about funding the 
organizations that preserve and make available Federal and 
Presidential records directly affect whether our democratic 
institutions will be reinforced by a robust historical 
understanding or weakened by a shallow, superficial historical 
awareness. Given these options, I trust that there will be 
bipartisan support for Franklin Roosevelt's vision of the 
centrality of history and the vitality of our democracy.
    Thank you for your time.
    Senator Carper. Thank you for that excellent testimony. 
Thank you so much.
    Mr. Sherwin. Thank you.
    Senator Carper. You were in the Navy?
    Mr. Sherwin. Yes.
    Senator Carper. Were you on a ship?
    Mr. Sherwin. In the air. I get seasick when someone runs 
the bathtub. [Laughter.]
    Senator Carper. What kind of airplane?
    Mr. Sherwin. P2Vs.
    Senator Carper. P3. Great to see you.
    Mr. Sherwin. You were lucky.
    Senator Carper. Yes, we were. I did 5 years active duty in 
the Vietnam War and another 18 beyond that. I would still be in 
the Navy if my wife hadn't made me quit after 23 years.
    Mr. Sherwin. Well, we are glad you are in the Senate.
    Senator Carper. So am I, and thank you for your service to 
our country.
    My first question is really one I am going to ask everyone 
to chime in on. I want to ask you to just step back a little 
bit and to use your outside perspective, not as an IG or 
someone who is actually working within the Archives office, but 
how do you think the Archives is doing in fulfilling its 
mission? I know many times it is easy to beat up on an agency 
that is in the hot seat, but if there is anything that the 
Archives is doing exceptionally well, I would like to hear 
about that. If there are things that they ought to be commended 
for, we would like to hear about that. Anything that you want 
to highlight that you have seen and want Congress to know 
about.
    What would you say as outside witnesses, is the No. 1 
challenge that the Archives faces today, and what advice would 
you have for us in Congress as to what we ought to do about it? 
And some of you have spoken to that, but repetition is not a 
bad thing.
    Dr. McDermott, do you want to lead that off?
    Ms. McDermott. Sure. How do I think NARA is doing 
fulfilling its mission? I think NARA is struggling to fulfill 
its mission. One thing that wasn't in my bio is I used to work 
at NARA. I worked at the Carter Presidential Library and then I 
actually worked at NARA here in DC. I think they have a problem 
that was addressed in the earlier testimony in that they, as 
Mr. Brachfeld said, they take an approach of collegiality and 
advising rather than being willing to seek the money that they 
need and to take their responsibility fully to ensure that our 
historical record really is being preserved.
    The Archives 10 years ago adopted a records management 
standard that DOD had adopted--5015, I think, something like 
that--and nothing has happened. Most agencies, as I said, don't 
have records management programs. They don't do records 
management; NARA has abandoned its role of doing auditing. They 
do training and they do guidance, but I think they really are 
failing in that mission.
    And I think that the Electronic Records Archives is a way 
of after-the-fact, as Mr. Blanton said, dealing with that 
problem, ingesting this material that they should have been 
dealing with 20 years ago. I mean, it has been over 20 years 
now that the government has moved to primarily digital creation 
of its documents and nothing has happened. Scott Armstrong, who 
helped found the National Security Archive, used to call it the 
Carlin Gap, that there is a 20-year, and now a 30-year gap in 
our history. We don't know if this stuff is being preserved, 
the electronic documents.
    So I think they are struggling, but I don't think they are 
doing well and I think Mr. Blanton is right that they are 
overwhelmed with the volume that is coming at them on 
classified information and the electronic records that are 
coming at them, and now they have these new missions that are 
arguably different. They are dealing with contemporaneous 
issues and contemporaneous records.
    So I think they need strong oversight. And I think they 
need to be pushed to seek more funding and then that funding 
needs to be overseen.
    Senator Carper. Thank you. Mr. Blanton.
    Mr. Blanton. I want to say a few good things about the 
National Archives, which is in my experience at so many of 
these facilities, the National Archives has a phenomenally 
professional, responsive staff that put up with onerous 
researchers who come in and make huge requests for records and 
want to scan everything yesterday. They are phenomenally 
responsive to their customers. They have a very high standard.
    And I think, having done research in archives around the 
world, from Jakarta to Moscow to Guatemala City, I say in the 
testimony, and there are a lot more places we have been, I 
would say every one of those folks comes to College Park or 
comes down here on the Mall and looks at our National Archives 
and says, well, that is the world class standard, and that is 
true. All that is true, and much to their credit.
    And when there is a crisis, like when we found the CIA and 
the Air Force stuffing previously released public documents 
back into the vault, or as the Washington Post called it, 
toothpaste back in the tube, Dr. Weinstein and his tremendous 
staff did absolutely the right thing, did an audit, showed the 
problem, and while the agency shoved 25,000 documents, hundreds 
of thousands of pages back into the vault before the audit, 
since the audit and those standards, seven documents. So they 
do the right thing when they see it on the front page or they 
get a call from the U.S. Senate to go do it.
    I outlined what I thought were the two big challenges, the 
electronic avalanche and the classified and declassified--there 
is a new mountain range of classified secrets being created 
today under new pressures from the War on Terror using old Cold 
War thinking, when even Donald Rumsfeld's own Defense 
Department said that 50 percent of what is classified shouldn't 
be, over-classified. Well, in that situation, think about the 
cost structure of that. If we are spending more than $8 billion 
on keeping the secrets and yet $4 billion of it is unnecessary, 
and it is more than unnecessary, it does damage to our national 
security to keep those secrets or keep making our own system 
more inefficient.
    So I think advice to Congress on those challenges, I think 
you have got to get in on the front end. You have got to set 
the standards for the agencies. It is not just a matter of 
giving money to the National Archives because you give money to 
the National Archives to do the Electronic Records Archives 
initiative. You are still behind the curve unless you tell the 
Pentagon, take your $30 billion you are spending on information 
technology and put archiving requirements in there. And when 
you make a system, build it so that it will produce a document 
that can be released to the public.
    The CIA spent tens of millions of dollars on this Remote 
Archives Capture project and it helped the National Archives a 
lot to try to address this huge load of classified documents. 
But there is no net output because the CIA didn't design that 
system to ever put those documents online. So now they have 
been processed digitally here in Washington. They come back to 
a Presidential library and those poor archivists have to print 
them out, review the printout, and then walk the printout to a 
Hollinger box and stick it into a file before you or I can get 
to see it. That is absurd. That is a total waste. So we have 
got to design our systems on the front end, and I think 
Congress is going to have to mandate that.
    Senator Carper. All right. Thank you. Same question, Dr. 
Henderson?
    Mr. Henderson. I have less inside scoop on what has 
actually been going on in many respects, but from the distance 
point of view, the DOD standard which I actually have committed 
to memory, which is 5015.2----
    Ms. McDermott. Right. Thank you.
    Mr. Henderson [continuing]. Is an incredibly detailed 
functional requirements for records management applications. 
This is something, though, as I mentioned, back in the 1990s 
people were starting to even think about the functional 
requirement for records management applications and just what 
it ought to be. And NHPRC and NARA supported that thinking, so 
I would give them mega-points for just even getting people to 
understand this.
    I think, though, what could be done more would certainly be 
to transfer some of that operational knowledge to some of the 
State archives in some formal way. I think we often struggle 
out in the provinces, even though we go to the national 
meetings and we know the people, but I don't think--that has 
not been one of the spin-offs of maybe a lot of knowledge that 
has been created within NARA and should be.
    And the other clearly is the advocacy for the funding. It 
is just part of the mission, I think, is to advocate. So if it 
isn't heard, then it ought to be clarified and it ought to be 
clear who heard the message, why it hasn't been responded to, 
and clearly the magnitude of the funds necessary versus other 
priorities are just completely out of whack since if we don't 
spend the resources at the front end and now, we are basically 
saying this is not as important as we all say it is when we 
have our flags on our lapel pins and we go out campaigning. But 
this really isn't as important as a few pigs in a poke.
    Senator Carper. All right. Thank you.
    The last word here, Dr. Sherwin, on this particular issue. 
I have one more question, and then we are going to wrap it up. 
Go ahead, Dr. Sherwin, please.
    Mr. Sherwin. I just want to say that I agree with 
everything that Tom Blanton especially said.
    Senator Carper. Everything?
    Mr. Sherwin. Yes, everything. Everything. [Laughter.]
    Senator Carper. Has this happened before, Mr. Blanton?
    Mr. Blanton. Never. [Laughter.]
    In fact, I lectured in a series at the University of 
Delaware hosted by the distinguished journalist Ralph Begleiter 
and----
    Senator Carper. I was just with Ralph on Saturday.
    Mr. Blanton [continuing]. I never list that in my resume 
because of the title he put on the lecture series. It was, 
``Spies, Lies, and Sneaky Guys.'' I was the only non-spy on the 
panel. [Laughter.]
    Senator Carper. All right. Thanks.
    Mr. Sherwin. Well, asking a historian about the National 
Archives experience is like asking a shopper who goes into a 
department store. If you find just what you are looking for on 
sale and you have a great sales person, you are happy as a 
clown, and that has happened to me frequently. Occasionally, I 
have had the opposite experience. What the internal structures 
are and the internal problems are that lead to the opposite 
experience, I can't say. But I think Mr. Blanton has put his 
finger on it.
    I think the most important thing for the near future is 
getting everything digitized and up online, and I think that 
the National Security Archive is really the model. Now, the 
National Archives, of course, are orders of magnitude, tens of 
thousands of orders of magnitude larger organization, and 
therefore much larger problem. But the process of digitizing 
all this and getting it online will also lead to a much more 
efficient declassification process because you can find words 
in there and you can go through hundreds of thousands of 
documents at once, and if none of the one million words that 
indicate that this might be a classified document are in any of 
these documents, bingo, they are declassified and that is the 
end of it.
    And the last thing I want to say is remind us all about the 
Pentagon Papers. I mean, those were top secret documents and 
they were released in the early 1970s. What harm did that do to 
the Nation? We knew more about why we were involved in that war 
and that was important to know. I think the Pentagon Papers is 
something that really should be looked at in terms of its 
impact on politics and the whole classification idea.
    Mr. Henderson. Mr. Chairman, would you tolerate just a 
minute?
    Senator Carper. Yes, just briefly. Go ahead.
    Mr. Henderson. Yes, and that raises the issue of 
digitization, which certainly isn't immediate gratification but 
it is a long-term royal pain and expense. So we just have to 
keep that in mind, that these electronic records are not, as 
everybody is saying, like the nice paper you put on the shelf 
that is going to last 400 years. It won't. It requires a lot of 
capital investment and long-term amortization of the cost of 
doing those things.
    So what I would be concerned about is as digitization is 
important for access, needless to say, preservation is so 
critical that we don't want to get further behind on that side 
of the coin.
    Senator Carper. OK. The last question that I wanted to ask 
focuses on a point that several of you have made. As somebody 
who has spent some time in the military and here in the 
Congress, as well, the notion that we sometimes over-classify 
information and continue to over-classify it and are reluctant 
to declassify information.
    I have someone waiting in my office who has been waiting 
now for a half-an-hour for me, and I need to go there in 
preparation for a markup on the Banking Committee on which I 
serve tomorrow on two significant pieces of legislation. I am 
being rude to them, and what I am going to have to do is draw 
this to a close. But rather than ask this question and one or 
two others that I have orally, what I would like to do is 
submit them electronically----
    Mr. Blanton. We will archive them for you, if you would 
like.
    Senator Carper. I was hoping that you might.
    Mr. Henderson. If they are deemed worthy.
    Senator Carper. I have a couple more questions I would like 
to submit. Others on our Subcommittee may have questions, as 
well, to submit, and I would just ask that when you get the 
questions to try and respond to them promptly. We would be most 
grateful.
    You have been very generous with your time today. This has 
been enjoyable, and frankly, for me, quite informative. It is 
nice to connect with a fellow Navy P2, P3 colleague, as well. 
So we will look forward to submitting a couple of questions in 
writing. We just ask that you respond.
    With that having been said, I am going to declare this 
hearing adjourned. Thank you.
    [Whereupon, at 5:25 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3913.001

[GRAPHIC] [TIFF OMITTED] T3913.002

[GRAPHIC] [TIFF OMITTED] T3913.003

[GRAPHIC] [TIFF OMITTED] T3913.004

[GRAPHIC] [TIFF OMITTED] T3913.005

[GRAPHIC] [TIFF OMITTED] T3913.006

[GRAPHIC] [TIFF OMITTED] T3913.007

[GRAPHIC] [TIFF OMITTED] T3913.008

[GRAPHIC] [TIFF OMITTED] T3913.009

[GRAPHIC] [TIFF OMITTED] T3913.010

[GRAPHIC] [TIFF OMITTED] T3913.011

[GRAPHIC] [TIFF OMITTED] T3913.012

[GRAPHIC] [TIFF OMITTED] T3913.013

[GRAPHIC] [TIFF OMITTED] T3913.014

[GRAPHIC] [TIFF OMITTED] T3913.015

[GRAPHIC] [TIFF OMITTED] T3913.016

[GRAPHIC] [TIFF OMITTED] T3913.017

[GRAPHIC] [TIFF OMITTED] T3913.018

[GRAPHIC] [TIFF OMITTED] T3913.019

[GRAPHIC] [TIFF OMITTED] T3913.020

[GRAPHIC] [TIFF OMITTED] T3913.021

[GRAPHIC] [TIFF OMITTED] T3913.022

[GRAPHIC] [TIFF OMITTED] T3913.023

[GRAPHIC] [TIFF OMITTED] T3913.024

[GRAPHIC] [TIFF OMITTED] T3913.025

[GRAPHIC] [TIFF OMITTED] T3913.026

[GRAPHIC] [TIFF OMITTED] T3913.027

[GRAPHIC] [TIFF OMITTED] T3913.028

[GRAPHIC] [TIFF OMITTED] T3913.029

[GRAPHIC] [TIFF OMITTED] T3913.030

[GRAPHIC] [TIFF OMITTED] T3913.031

[GRAPHIC] [TIFF OMITTED] T3913.032

[GRAPHIC] [TIFF OMITTED] T3913.033

[GRAPHIC] [TIFF OMITTED] T3913.034

[GRAPHIC] [TIFF OMITTED] T3913.035

[GRAPHIC] [TIFF OMITTED] T3913.036

[GRAPHIC] [TIFF OMITTED] T3913.037

[GRAPHIC] [TIFF OMITTED] T3913.038

[GRAPHIC] [TIFF OMITTED] T3913.039

[GRAPHIC] [TIFF OMITTED] T3913.040

[GRAPHIC] [TIFF OMITTED] T3913.041

[GRAPHIC] [TIFF OMITTED] T3913.042

[GRAPHIC] [TIFF OMITTED] T3913.043

[GRAPHIC] [TIFF OMITTED] T3913.044

[GRAPHIC] [TIFF OMITTED] T3913.045

[GRAPHIC] [TIFF OMITTED] T3913.046

[GRAPHIC] [TIFF OMITTED] T3913.047

[GRAPHIC] [TIFF OMITTED] T3913.048

[GRAPHIC] [TIFF OMITTED] T3913.049

[GRAPHIC] [TIFF OMITTED] T3913.050

[GRAPHIC] [TIFF OMITTED] T3913.051

[GRAPHIC] [TIFF OMITTED] T3913.052

[GRAPHIC] [TIFF OMITTED] T3913.053

[GRAPHIC] [TIFF OMITTED] T3913.054

[GRAPHIC] [TIFF OMITTED] T3913.055

[GRAPHIC] [TIFF OMITTED] T3913.056

[GRAPHIC] [TIFF OMITTED] T3913.057

[GRAPHIC] [TIFF OMITTED] T3913.058

[GRAPHIC] [TIFF OMITTED] T3913.059

[GRAPHIC] [TIFF OMITTED] T3913.060

[GRAPHIC] [TIFF OMITTED] T3913.061

[GRAPHIC] [TIFF OMITTED] T3913.062

[GRAPHIC] [TIFF OMITTED] T3913.063

[GRAPHIC] [TIFF OMITTED] T3913.064

[GRAPHIC] [TIFF OMITTED] T3913.065

[GRAPHIC] [TIFF OMITTED] T3913.066

[GRAPHIC] [TIFF OMITTED] T3913.067

[GRAPHIC] [TIFF OMITTED] T3913.068

[GRAPHIC] [TIFF OMITTED] T3913.069

[GRAPHIC] [TIFF OMITTED] T3913.070

[GRAPHIC] [TIFF OMITTED] T3913.071

[GRAPHIC] [TIFF OMITTED] T3913.072

[GRAPHIC] [TIFF OMITTED] T3913.073

[GRAPHIC] [TIFF OMITTED] T3913.074

[GRAPHIC] [TIFF OMITTED] T3913.075

[GRAPHIC] [TIFF OMITTED] T3913.076

[GRAPHIC] [TIFF OMITTED] T3913.077

[GRAPHIC] [TIFF OMITTED] T3913.078

[GRAPHIC] [TIFF OMITTED] T3913.079

[GRAPHIC] [TIFF OMITTED] T3913.080

[GRAPHIC] [TIFF OMITTED] T3913.081

[GRAPHIC] [TIFF OMITTED] T3913.082

[GRAPHIC] [TIFF OMITTED] T3913.083

[GRAPHIC] [TIFF OMITTED] T3913.084

[GRAPHIC] [TIFF OMITTED] T3913.085

[GRAPHIC] [TIFF OMITTED] T3913.086

[GRAPHIC] [TIFF OMITTED] T3913.087

[GRAPHIC] [TIFF OMITTED] T3913.088

[GRAPHIC] [TIFF OMITTED] T3913.089

[GRAPHIC] [TIFF OMITTED] T3913.090

[GRAPHIC] [TIFF OMITTED] T3913.091

[GRAPHIC] [TIFF OMITTED] T3913.092

[GRAPHIC] [TIFF OMITTED] T3913.093

[GRAPHIC] [TIFF OMITTED] T3913.094

[GRAPHIC] [TIFF OMITTED] T3913.095

[GRAPHIC] [TIFF OMITTED] T3913.096

[GRAPHIC] [TIFF OMITTED] T3913.097

[GRAPHIC] [TIFF OMITTED] T3913.098

[GRAPHIC] [TIFF OMITTED] T3913.099

[GRAPHIC] [TIFF OMITTED] T3913.100

[GRAPHIC] [TIFF OMITTED] T3913.101

[GRAPHIC] [TIFF OMITTED] T3913.102

[GRAPHIC] [TIFF OMITTED] T3913.103

[GRAPHIC] [TIFF OMITTED] T3913.104

[GRAPHIC] [TIFF OMITTED] T3913.105

[GRAPHIC] [TIFF OMITTED] T3913.106

[GRAPHIC] [TIFF OMITTED] T3913.107

                                 <all>

</pre></body></html>
